App. 1
Geophysical Serv. v. TGS-NOPEC Geophysical Co.
United States Court of Appeals for the Fifth Circuit
September 13, 2019, Filed
No. 18-20493
Counsel: For Geophysical Service, Incorporated,
Plaintiff - Appellant: Joel Benjamin Rothman,
SRipLaw, P.L.L.C., Boca Raton, FL; Brent Taylor Caldwell, Matthew J. M. Prebeg, Ph. D., Prebeg, Faucett &
Abbott, P.L.L.C., Houston, TX; Don Cruse, Law Office
of Don Cruse, Austin, TX.
For TGS-Nopec Geophysical Company, Defendant - Appellee: Melanie B. Rother, Peter C. Tipps, Norton Rose
Fulbright US, L.L.P., Houston, TX.
Judges: Before CLEMENT, HAYNES, and WILLETT,
Circuit Judges.
Opinion
PER CURIAM:*
Geophysical Service, Incorporated (“Geophysical”), a Canadian company that collects, prepares, and
licenses offshore seismic data, appeals the grant of
summary judgment against it on its copyright infringement claim. Because we agree with the district
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent except under the limited circumstances set forth in 5TH CIR. R.
47.5.4.

App. 2
court that Geophysical granted non-party the CanadaNewfoundland and Labrador Offshore Petroleum
Board (the “Board”) an implied license to copy and distribute its speculative seismic data, we AFFIRM the
judgment without reaching the parties’ other arguments.
I.

Background

Canada regulates the use of seismic surveys to explore for petroleum deposits off the Canadian shore.
The 1960 Canada Oil and Gas Regulations required
offshore seismic surveyors to obtain a permit before
conducting surveying operations. After the surveys
were conducted, the surveyors were required to submit
the resulting seismic data to the government. This
seismic data could then be released to the public after
a set confidentiality period. The 1982 Canada Oil and
Gas Act retained the Regulations’ submission requirements and lengthened the confidentiality period to five
years.
In March 1982, Geophysical submitted a permit
application (the “Offshore Program Notice”) to the Canadian government to conduct a seismic survey that
resulted in the creation of the works at issue in this
case (the “GSI Works”).1 The precursor to the Board,

1

The application was actually submitted by Geophysical’s predecessor-in-interest, a Delaware corporation also called “Geophysical Service Inc.” Through various corporate sales, the Canadian
Geophysical now owns the GSI Works and any copyrights in them
that the Delaware corporation held. Because these sales do not

App. 3
the Canada Oil and Gas Lands Administration (the
“Administration”), approved Geophysical’s application.
The approved Offshore Program Notice refers to a
1979 publication called “Offshore Exploration.” Offshore Exploration explains the requirement that
offshore surveyors submit seismic data to the government and provides that members of the public may
purchase copies of the released data from the
Administration after the lapse of the confidentiality
period. Geophysical submitted the first copies of the
GSI Works to the Administration in November 1982.
Two months later, the Administration issued a report
listing seismic data that it had released to the public
and again describing how to request copies. Included
in the list were Geophysical’s data from previous surveys whose confidentiality period had already expired.
Following the release of the report, Geophysical submitted copies of the GSI Works to the Administration
without protest on four more occasions between March
and November 1983.
In 1999, Appellee TGS-NOPEC Geophysical Co.
(“TGS”), a Texas company that provides global geological data products and services, requested copies of the
GSI Works from the Board (which had since replaced
the Administration as the relevant Canadian regulatory body). The Board sent a copy to TGS in Texas.
Fifteen years later, Geophysical sued TGS for copyright infringement, claiming direct infringement, contributory infringement, and unlawful removal of
affect the analysis, we refer to both the Canadian corporation and
its Delaware predecessor-in-interest as “Geophysical.”

App. 4
copyright management information. The district court
granted TGS’s motion to dismiss in full, and Geophysical appealed. A different panel of this court affirmed
the district court in part, but reversed and remanded
Geophysical’s direct infringement claim based on unlawful importation. Geophysical Serv., Inc. v. TGSNOPEC Geophysical Co., 850 F.3d 785, 792, 796-98,
800 (5th Cir. 2017).2
On remand, TGS eventually moved for summary
judgment. It argued that Geophysical had granted the
Board an express, or alternatively implied, license to
copy and distribute the GSI Works after the confidentiality period expired. The district court granted TGS
summary judgment on the implied-license and express-license theories. Geophysical timely appealed.
II.

Discussion

Geophysical appeals both of the district court’s
holdings, and TGS argues the panel can alternatively
affirm the district court under copyright law’s first-sale
doctrine. Because we agree with the district court that
Geophysical granted the Board an implied license, we
do not reach the express-license or first-sale arguments.
We review a grant of summary judgment de novo.
Mid-Continent Cas. Co. v. Petroleum Solutions, Inc.,
917 F.3d 352, 357 n.7 (5th Cir. 2019). Because the
2

The court’s opinion in this prior appeal discusses the factual and regulatory background in more detail.

App. 5
contention that a defendant possesses a license authorizing use of materials claimed to be copyrighted is an
affirmative defense, TGS would bear the burden of
proof at trial. Lulirama Ltd., Inc. v. Axcess Broad.
Servs., Inc., 128 F.3d 872, 884 (5th Cir. 1997). Summary
judgment is appropriate “if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “If the moving party meets that
burden, the non-moving party must show the existence
of a genuine issue for trial, and the evidence and the
inferences must be viewed in the light most favorable
to the non-movant.” HSBC Bank U.S.A., N.A. v. Crum,
907 F.3d 199, 202 (5th Cir. 2018).
Geophysical alleges that, by importing copies of
the GSI Works into the United States, TGS violated its
exclusive right to “distribute copies” of the GSI Works.
See 17 U.S.C. § 106(3). Even though the copies were
made in Canada, the lawfulness of importing them into
the United States is a question of U.S. law. See 17
U.S.C. § 602(a)(2) (“Importation into the United States
. . . , without the authority of the owner of copyright
under this title, of copies . . . , the making of which . . .
would have constituted an infringement of copyright if
this title had been applicable, is an infringement of the
exclusive right to distribute copies . . . under section
106. . . .”). TGS does not dispute that Geophysical
holds a valid copyright in the GSI Works. Thus, the relevant question for this Court is whether, under U.S.
copyright law, Geophysical granted the Board a license
to make and distribute copies of the GSI Works.

App. 6
We determine whether an implied license exists
based on “the totality of the parties’ conduct.” Lulirama, 128 F.3d at 879; see Baisden v. I’m Ready Prods.,
Inc., 693 F.3d 491, 501 (5th Cir. 2012) (holding that “an
implied license [can] arise . . . where the totality of the
parties’ conduct support[s] such an outcome”). “Consent for an implied license may take the form of permission or lack of objection.” Baisden, 693 F.3d at 500.
Here, the totality of the parties’ conduct proves
that Geophysical granted the Board an implied license
to copy and distribute the GSI Works.3 The relevant
Canadian law and publications explicitly provided that
the government could copy and distribute seismic data
once the confidentiality period had expired. The 1982
Canada Oil and Gas Act notes that “information or documentation furnished . . . in respect of geological or geophysical work . . . [may be disclosed] . . . on the
expiration of five years following the completion of the
work.” Offshore Exploration similarly provides for this
practice; under the heading “Obtaining Copies of Reports,” it notes that “[g]eological and geophysical reports including seismic sections and maps may be
3

We note that Geophysical in fact granted the Administration, rather than the Board, an implied license, since the Board
was not established until after Geophysical created and submitted the GSI Works. The 1987 Atlantic Accord Implementation Act
that established the Board directs that any operating licenses the
Administration granted were transferred to the Board. We conclude that the Administration’s implied license was therefore also
transferred to the Board. See 3 NIMMER ON COPYRIGHT
§ 10.02 [B][4][c] (2019) (noting that a non-exclusive license should
remain intact even when the identities of the parties change, such
as through merger, sale, or reorganization).

App. 7
purchased after expiry of the confidential period.” Finally, the 1983 report listing geological data released
in accordance with the 1982 Canada Oil and Gas Act
also provided that released data could be copied and
purchased. Thus, it was public information that the
government copied and distributed seismic data.
Along those lines, TGS provided a declaration
from the Director General of the Administration’s
Land Management Branch, who, based on more than
40 years of industry experience, stated that offshore
seismic surveyors should have known that the Administration was copying data after the confidentiality period during the time Geophysical submitted the GSI
Works. Indeed, Offshore Exploration was referenced in
Geophysical’s Offshore Program Notice, and the 1983
reports contain multiple examples of Geophysical’s
data that had been released. Yet Geophysical did not
object to the government’s practice of copying and releasing data when it submitted the GSI Works.
Geophysical argues that it produced evidence that
it did not believe the government would copy its data
because the government often declined to copy “speculative” seismic data; it argues that summary judgment
was improper because of this factual dispute. But Geophysical’s evidence creates no genuine issues of material fact. Geophysical points to an affidavit from its
president in which he states that “[a]t the relevant
times, the government . . . never advised that it would
make available to and directly participate in the copying of the Seismic Works for other parties.” The president also notes, however, that “[o]ver time, . . .

App. 8
government entities . . . conduct[ed] their own copying
in-house for third parties.” The 1983 reports also show
that the government had a policy of making speculative data available for copying-including Geophysical’s.4
Geophysical also points to an affidavit from its
chief operating officer, who states that he understood
in 1993 and 1994 that Geophysical retained all intellectual property rights in its seismic data and that the
Board was protecting Geophysical’s rights. But 1993 to
1994 is not the relevant time period; we are concerned
with the parties’ conduct in 1982-when Geophysical
applied for the permit and began giving copies of the
GSI Works to the Canadian government.
Even taking the evidence in the light most favorable to Geophysical, the totality of the parties’ conduct
proves that Geophysical granted the Board an implied
license to copy and distribute the GSI Works, and no

4

Geophysical’s reliance on a statement about speculative
data in a Canadian court opinion is similarly unavailing. Geophysical has not even attempted to explain how a judge’s opinion
in that case could be “presented in a form that would be admissible in evidence” in this one. Fed. R. Civ. P. 56(c)(2).

App. 9
material fact issues exist.5 Therefore, we AFFIRM the
district court’s judgment.

5
Geophysical also argues that even if there is an implied license, it does not cover exporting the GSI Works to the United
States. Other circuits have concluded that the parties’ conduct reveals the scope of the license. See Latimer v. Roaring Toyz, Inc.,
601 F.3d 1224, 1235 (11th Cir. 2010) (holding that “an implied
license will be limited to a specific use only if that limitation is
expressly conveyed”); S.O.S., Inc. v. Payday, Inc., 886 F.2d 1081,
1088 (9th Cir. 1989) (noting an express license to use software did
not include copyright use because “copyright licenses are assumed
to prohibit any use not authorized”). This is consistent with
Baisden’s totality-of-the-circumstances inquiry. Here, there is
nothing in the relevant Canadian law and publications that indicates the Board distributed works only within Canada, and Geophysical fails to point to any evidence that it intended to so limit
the implied license. To the contrary, the majority of offshore seismic exploration in Canada at the time was done by American and
other foreign companies-including Geophysical. See supra n.1.
Because one of Canada’s stated purposes of releasing the data
was to facilitate additional oil exploration, the foreign companies
doing such exploration would be among the data’s logical recipients. Thus, we reject this argument.

App. 10
Geophysical Servs. v.
TGS-NOPEC Geophysical Servs.
United States District Court for the
Southern District of Texas, Houston Division
June 19, 2018, Decided; June 19, 2018, Filed
CIVIL ACTION NO. 14-1368
Counsel: For Geophysical Service Incorporated, Plaintiff: Joel B Rothman, LEAD ATTORNEY, Schneider
Rothman, Boca Raton, FL USA; Matthew J M Prebeg,
LEAD ATTORNEY, Prebeg Faucett Abbott PLLC, Houston, TX USA; Aaron M. Panner, Kellogg Hansen et al,
Washington, DC USA; Brent Taylor Caldwell, Prebeg
Faucett & Abbott, PLLC, Houston, TX USA; Collin
Randall White, Kellog Hansen et al, Washington, DC
USA.
For TGS-Nopec Geophysical Company, Defendant: Melanie B Rother, Peter Conger Tipps, LEAD ATTORNEYS,
Norton Rose Fulbright US LLP, Houston, TX USA.
Judges: Lee H. Rosenthal, Chief United States District Judge.
Opinion by: Lee H. Rosenthal
Opinion
MEMORANDUM AND OPINION
The plaintiff, Geophysical Services Incorporated,
brought this copyright suit against the defendant,
TGS-NOPEC Geophysical Services. (Docket Entry No.
1). TGS moved for summary judgment, Geophysical

App. 11
responded, and TGS replied. (Docket Entry Nos. 96, 98,
99). The parties appeared at a hearing on July 15, 2018
and presented oral argument on their positions.
Based on the law, the record, and the parties’ arguments, the summary judgment motion is granted.
Final judgment is entered separately. The reasons for
this ruling are explained below.
I.

Background

Geophysical Services Incorporated is a Canadian
company that collects seismic data by bouncing sound
waves off the ocean floor, recording the information
and processing, transcribing, and storing the information as seismic lines.1 Geophysical licenses the seismic data to oil and gas companies for use in oil, gas,
and other hydrocarbon exploration. Geophysical asserts a copyright interest in the seismic data under
United States law.
In 1999, TGS, a Houston company, requested copies of seismic data that Geophysical had submitted to
a Canadian agency in 1982 and 1983, the Canada Oil
and Gas Lands Administration, pursuant to Canadian
laws and regulations. The Administration’s successor,
the Canada-Newfoundland and Labrador Offshore Petroleum Board, made copies and sent them to TGS
at its Houston address. TGS performed seismic surveys at several of the same locations Geophysical had
1

Additional background facts are provided in the court’s earlier Memorandum and Opinion (Docket Entry No. 86 at 1-3).

App. 12
surveyed in 1982. TGS licensed the seismic data it collected to oil and gas companies. Geophysical discovered TGS’s actions in 2013 and sued in May 2014.
II.

Procedural History

A.

The First Motion to Dismiss

Geophysical’s original complaint alleged that TGS
directly and contributorily infringed Geophysical’s copyrights in the 1982 seismic data by requesting copies
from the Board, making the copies it received from the
Board available to third parties, creating derivative
works by surveying the locations disclosed in the Geophysical seismic lines to collect its own seismic data,
which it licensed to third parties, and licensing and
distributing copies of these derivative works without
including Geophysical’s copyright-management information. (Docket Entry No. 1).
TGS moved to dismiss, arguing that Geophysical’s
complaint failed to state a claim and that any claim
was barred by the act-of-state doctrine and by international comity. (Docket Entry No. 10). After briefing and
argument, the court granted TGS’s motion to dismiss.
(Docket Entry No. 28). The court vacated its dismissal
because the opinion relied on grounds that the parties
had not expressly raised. (Docket Entry No. 43). The
court issued an amended memorandum and opinion
and order that again dismissed Geophysical’s complaint. Id.

App. 13
B.

The Interlocutory Appeal

Geophysical filed an interlocutory appeal challenging the dismissals of the unauthorized-importation basis of its direct infringement claim and the dismissal
of the contributory infringement claim. Geophysical
Serv., Inc. v. TGS-NOPEC Geophysical Co., 850 F.3d
785, 792 (5th Cir. 2017). The Fifth Circuit affirmed the
dismissal of Geophysical’s contributory infringement
claim on extraterritoriality grounds, but reversed the
dismissal of the unauthorized-importation component
of Geophysical’s direct infringement claim. Id. at 799800. The Fifth Circuit directed this court to decide
on remand which law governs the determination of
whether the copies TGS imported were “lawfully made”
under 17 U.S.C. § 109, and then to apply that law to
the record in this case. Id.
C.

The Second Motion to Dismiss

Following the Fifth Circuit’s remand, TGS filed a
renewed motion to dismiss, Geophysical responded,
and TGS replied. (Docket Entry Nos. 62, 72, 74). After
the court heard oral argument, (Docket Entry No. 79),
TGS filed a supplemental reply, Geophysical filed a
supplemental response, and TGS filed a second supplemental reply. (Docket Entry Nos. 81, 84, 85).
On November 21, 201, this court issued a memorandum and order denying TGS’s motion to dismiss.
(Docket Entry No. 86). First, this court found that a
copy is “lawfully made under this title” if the copy is
lawfully made in the United States in compliance with

App. 14
Title 17, or in a foreign country in a manner that would
comply with Title 17 if United States copyright law
applied. Id. at 17; 17 U.S.C. § 602(a)(1). This court declined to dismiss on the basis of an implied license, because the record was insufficient to find a license as a
matter of law. Id. at 26. The court stated:
TGS argues that Geophysical’s complaint allegations establish an intent to convey an implied license because Geophysical was aware
of and complied with Canada’s licensing requirement to submit the seismic data and
agree to a limited confidentiality period. TGS
asserts that the Canadian regulatory regime
has, at the relevant times, provided that the
submitted data would be disclosed on request
after a period of confidentiality, and that Geophysical voluntarily submitted its seismic data
to the Board knowing that it could be disclosed when this period expired.
TGS is correct that the complaint alleges Geophysical’s participation in this regulatory licensing scheme. Geophysical alleges that it
“was required to, and did, submit to the
[Board] a copy of [its works].” (Docket Entry
No. 1, ¶ 29). But the parties dispute whether
this amounted to an implied license and, if
so, the parameters of the license that resulted. These disputes cannot be resolved on
the present record.
One dispute is whether Geophysical intended
to grant the Board an implied license that
extended to copying and distribution. Geophysical alleges that the Board “was never

App. 15
authorized to copy or distribute [Geophysical’s works], or make derivative works from
[its works].” Id. at ¶ 30. As this court previously noted, “[n]either the Act nor the Regulations contain language limiting the Petroleum
Board’s authority to copy and distribute the
seismic line and other data it requires surveyors to submit.” (Docket Entry No. 28, at 15).
Instead, the Canadian regulations use broad
language that gives the Board “extensive control over the data, including the right to copy
and distribute it after the confidentiality period ends.” Id. But even assuming that the
Board had the authority to copy and distribute the seismic data it required, the question
of Geophysical’s intent turns on the information and circumstances available to it at
the relevant time. Would a company in Geophysical’s position in 1982 and 1983 reasonably understand that the Canadian regulations
permitting the Board to disclose the seismic
data after the confidentiality period ended
could result in the copying and distribution of
that data to any requesting party? Did the
Board have discretion to decide whether to
copy and send the data to those requesting it,
as Geophysical argues? (Docket Entry No. 72,
at 25; Docket Entry No. 84, at 4). If so, does
the Board’s discretion affect whether Geophysical intended to grant an implied license
that included copying and distribution? And if
Geophysical granted an implied license, should
Geophysical have reasonably expected the license to extend to importation of copies of its
works into the United States?

App. 16
These questions—and there may be more—
cannot be answered on the present record.
The questions are important to determine
whether Geophysical’s participation in the
Canadian regulatory regime shows that it
granted the Board an implied license to copy
and distribute its seismic data and import it
into the United States. See Geophysical, 850
F.3d at 799 (the creation of an implied license
is a fact question). On the present record,
TGS’s motion to dismiss on the impliedlicense ground must be denied.
Id. at 25-27.
On December 1, the parties were given a deadline
to complete discovery limited to the implied-license issue. (Docket Entry Nos. 88, 89). After, TGS moved for
summary judgment, Geophysical responded, and TGS
replied. (Docket Entry Nos. 96, 98, 99).
III. Timeline of Important Events
The following timeline describes the Canadian
regulatory regime and the actions of Geophysical and
its predecessors as to the seismic data at issue under
that regime:
• 1953: The Territorial Regulations of 1953
establishes a Canadian regime governing the
submission and disclosure of geophysical data.
(Docket Entry No. 81 at 3); Geophysical Serv.,
Inc. v. Encana Corp. et al., 2016 ABQB 230,
¶ 145 (Ct. Queen’s Bench of Alberta 2016).

App. 17
• 1960: The Canada Oil and Gas Regulations
are enacted under the Territorial Lands Act
and the Public Lands Grants Act. (Docket Entry No. 81 at 3); RSC 1952, c. 363; RSC 1952,
c. 224. The regulations require offshore seismic
surveyors to obtain government permission
before beginning seismic surveying operations and to submit the resulting seismic data
to the government. SOR 60-182, §§ 5(1), 29
(1960). The regulations provided for the “release” of the data after a one-year confidentiality period. SOR 60-182, § 108.
• 1961: The Canada Oil and Gas Land Regulations are amended to clarify the contents of
the report that was required to be submitted
by geophysical companies and to lengthen the
confidentiality period. (Docket Entry No. 81
at 5); SOR 61-253, §§ 28, 54(2), 54(4)(a)-(c),
107(5)(a)(i) (1961).
• 1978: The Canada Oil and Gas Land Regulations are amended again, but no substantive
changes are made. (Docket Entry No. 81 at 7);
CRC 1518 (1978).
• April 1979: The Department of Energy,
Mines and Resources’ Resource Management
Branch released the eighth issue of “Offshore
Exploration,” which contains information and
procedures for offshore operators. (Docket Entry No. 96, Ex. 7). Offshore Exploration provides for the release of “[r]eports of geological
and geophysical surveys,” including “seismic
sections and maps.” Id. at 61-62. “Copies” of
“seismic sections and maps may be purchased

App. 18
after expiry of the confidential period.” Id. at
62.
• December 1981: The Canadian Parliament
passed the Canada Oil and Gas Act, to become
effective in March 1982. (Docket Entry No. 81
at 8); Canada Oil and Gas Act, SC 1980-81-8283 (1982). Under the Oil and Gas Act, the
1978 Oil and Gas Regulations remained in effect to the extent they were consistent with
the Oil and Gas Act. (Docket Entry No. 81 at
8); Canada Oil and Gas Act, SC 1980-81-8283, c. 81, § 62 (1982). “The Oil and Gas Act did
not contain a data submission requirement,”
but it does include a disclosure provision.
(Docket Entry No. 81 at 8); Canada Oil and
Gas Act, SC 1980-81-82-83, c. 81, § 50 (1982).
• January 1982: The Canada Oil and Gas
Lands Administration was established, succeeding the Department of Energy, Mines and
Resources and the Department of Indian and
Northern Affairs Canada. (Docket Entry No.
96, Ex. 3 at ¶¶ 6-7). The Administration’s
Land Management Branch was “responsible
for the negotiation, execution, and administration of exploration and production rights
on all federal offshore and Northern lands.”
Id. at ¶ 6. The Administration’s Resource Evaluation Branch was responsible for “the regulatory regime governing the submission and
disclosure of technical data such as seismic
lines.” Id. at ¶ 7.
• March 24, 1982: Delaware GSI submitted
a permit application seeking permission to

App. 19
conduct the survey that resulted in the creation of the seismic data at issue. (Docket Entry No. 96, Ex. 12). The application contained
an Offshore Program Notice signed by a Delaware GSI official, but not yet approved by the
Administration. Id. The notice states: “The requirements and services of the Federal agencies concerned are outlined in the publication
“Offshore Exploration.” Id.
• May 4, 1982: The Administration approved
Delaware GSI’s permit application. (Docket
Entry No. 96, Ex. 6). The returned Offshore
Program Notice contains the same reference
to “Offshore Exploration.” Id.
• November 1982: The Administration issued
“Geophysical Surveys on Canada Lands: Guidelines for Approvals and Reports.” (Docket Entry
No. 96, Ex. 8). The “Guidelines for Approvals
and Reports” expressly refer to “Offshore Exploration” as a “recommended reference publication” that “outline[d] the responsibilities
and requirements of federal departments
and agencies concerned with the offshore,”
and provided the list of “released geophysical/
geological reports to April 1979.” Id. at ¶ 1.
• November 26, 1982: According to Geophysical’s records, the first submission of the seismic
data at issue is made to the Administration.
(Docket Entry No. 96, Ex. 11 at 4, Ex. 14).
• January 1983: The Administration issued
“Released Geophysical and Geological Reports—Canada Lands,” pre-dating at least
four submissions of the seismic data. (Docket

App. 20
Entry No. 96, Ex. 11 at 4, Ex. 15). The “Reports” confirmed that released seismic lines
would be “reproduce[ed]” and “duplicat[ed]” by
a commercial firm, and identified 698 speculative and non-speculative geophysical programs that had already been released for
reproduction and duplication. (Docket Entry
No. 96, Ex. 15 at 5).
• March 8, 1983: Geophysical submitted prints
of the seismic data at issue. (Docket Entry No.
96, Ex. 11 at 4, Ex. 16).
• March 21, 1983: Geophysical submitted prints
of all Newfoundland data it shot and processed in 1982. (Docket Entry No. 96, Ex. 11
at 4, Ex. 17).
• April 6, 1983: Geophysical submits additional prints of the seismic data at issue.
(Docket Entry No. 96, Ex. 11 at 4, Ex. 18).
• November 3, 1983: Geophysical submits additional prints of the seismic data at issue.
(Docket Entry No. 96, Ex. 11 at 4, Ex. 18).
• March 25, 1987: The Canada-Newfoundland Atlantic Accord Implement Act states
that any licenses granted to the Administration transfer to the Canada-Newfoundland
and Labrador Offshore Petroleum Board by
operation of law. Canada-Newfoundland Atlantic Accord Implementation Act, S.C. 1987,
c. 3 at § 205.
• November 8, 1987: The seismic data at issue loses its confidentiality status. (Docket

App. 21
Entry No. 96, Ex. 9 at 8-9, Ex. 11 at 3, Ex. 15
at 1).
• April 1999: TGS receives copies of the seismic data. (Docket Entry No. 1 at ¶ 35).
This timeline provides the framework for deciding the
summary judgment motion.
IV. The Legal Standards
A.

Summary Judgment

“Summary judgment is required when ‘the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.’ ” Trent v. Wade, 776 F.3d 368, 376 (5th
Cir. 2015) (quoting Fed. R. Civ. P. 56(a)). “A genuine dispute of material fact exists when the ‘evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.’ ” Nola Spice Designs, LLC v. Haydel
Enters., Inc., 783 F.3d 527, 536 (5th Cir. 2015) (quoting
Anderson v. Liberty Lobby, 477 U.S. 242, 248, 106 S. Ct.
2505, 91 L. Ed. 2d 202 (1986)). “The moving party
‘bears the initial responsibility of informing the district court of the basis for its motion, and identifying
those portions of [the record] which it believes demonstrate the absence of a genuine issue of material fact.’ ”
Id. (quoting EEOC v. LHC Grp., Inc., 773 F.3d 688, 694
(5th Cir. 2014)); see also Celotex Corp. v. Catrett, 477
U.S. 317, 323, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986).
If the burden of proof at trial lies with the nonmoving party, the movant may satisfy its initial burden by

App. 22
showing an absence of evidence to support the nonmoving party’s case. Fret v. Melton Truck Lines, Inc.,
706 F. App’x 824, 827-28 (5th Cir. 2017). While the
party moving for summary judgment must demonstrate the absence of a genuine issue of material fact,
it does not need to negate the elements of the nonmovant’s case. Coastal Agric. Supply, Inc. v. JP Morgan
Chase Bank, N.A., 759 F.3d 498, 505 (5th Cir. 2014)
(citing Boudreaux v. Swift Transp. Co., 402 F.3d 536,
540 (5th Cir. 2005)). A fact is material if “its resolution
could affect the outcome of the actions.” Aly v. City
of Lake Jackson, 605 F. App’x 260, 262 (5th Cir. 2015)
(citing Burrell v. Dr. Pepper/Seven UP Bottling Grp.,
Inc., 482 F.3d 408, 411 (5th Cir. 2007)). “If the moving
party fails to meet [its] initial burden, the motion [for
summary judgment] must be denied, regardless of the
nonmovant’s response.” Pioneer Exploration, LLC v.
Steadfast Ins. Co., 767 F.3d 503 (5th Cir. 2014).
“When the moving party has met its Rule 56(c)
burden, the nonmoving party cannot survive a summary judgment motion by resting on the mere allegations of its pleadings.” Bailey v. E. Baton Rouge Parish
Prison, 663 F. App’x 328, 331 (5th Cir. 2016) (quoting
Duffie v. United States, 600 F.3d 362, 371 (5th Cir.
2010)). The nonmovant must identify specific evidence
in the record and articulate how that evidence supports that party’s claim. Willis v. Cleco Corp., 749 F.3d
314, 317 (5th Cir. 2014). “This burden will not be satisfied by ‘some metaphysical doubt as to the material
facts, by conclusory allegations, by unsubstantiated assertions, or by only a scintilla of evidence.’ ” Jurach v.

App. 23
Safety Vision, LLC, 642 F. App’x 313, 317 (5th Cir.
2016) (quoting Boudreaux v. Swift Transp. Co., 402 F.3d
536, 540 (5th Cir. 2005)). In deciding a summary judgment
motion, the court draws all reasonable inferences in
the light most favorable to the nonmoving party. Darden
v. City of Fort Worth, 866 F.3d 698, 702 (5th Cir. 2017).
B.

Express and Implied Licenses

A copyright owner may authorize the use of a copyrighted work by granting a license. “Generally, a ‘copyright owner who grants a nonexclusive license to use
his copyrighted material waives his right to sue the licensee for copyright infringement’ and can sue only for
breach of contract.” Sun Microsystems, Inc. v. Microsoft
Corp., 188 F.3d 1115, 1121 (9th Cir. 1999) (quoting Graham v. James, 144 F.3d 229, 236 (2d Cir. 1998)). “While
the Copyright Act requires that exclusive licenses be
evidenced by a writing, no such writing requirement
applies to nonexclusive licenses.” Lulirama Ltd., Inc. v.
Axcess Broadcast Sys., Inc., 128 F.3d 872, 879 (5th Cir.
1997). A nonexclusive implied license may be implied
from conduct or granted orally. Carson v. Dynegy, 344
F.3d 446, 451 n. 5 (5th Cir. 2003).
“Principles of contract law are generally applicable in the construction of copyright assignments, licenses and other transfers of rights.” Key Maps, Inc. v.
Pruitt, 470 F. Supp. 33, 38 (S.D. Tex. 1978). To form a
binding express contract there must be: “(1) an offer,
(2) an acceptance in strict compliance with the terms
of the offer, (3) a meeting of the minds, (4) each party’s

App. 24
consent to the terms, and (5) execution and delivery of
the contract with the intent that it be mutual and binding.” Malone v. Ariba, Inc., 99 F. App’x 545, 549 (5th Cir.
2004) (quoting Komet v. Graves, 40 S.W.3d 596, 600
(Tex. App. 2001)).
An implied license typically arises when: “(1) a
person (the licensee) requests the creation of a work,
(2) the creator (the licensor) makes the particular work
and delivers it to the licensee who requested it, and
(3) the licensor intends that the licensee-requestor
copy and distribute his work.” Lulirama Ltd., Inc. v.
Axcess Broadcast Services, Inc., 128 F.3d 872, 879 (5th
Cir. 1997). “[T]he creation of an implied license, which
turns on the copyright holder’s intent, is a fact question.” Geophysical, 850 F.3d at 798; Sanchez v. Hacienda Records & Recording Studio, Inc., 2013 U.S. Dist.
LEXIS 18169, 2013 WL 529950, at *6 (S.D. Tex Feb. 11,
2013). “Without intent [to permit the use], there can be
no implied license.” Id. (quotation and citation omitted). An implied license can arise even when each of
the Lulirama factors are not present but “where the
totality of the parties’ conduct supported such an outcome.” See Baisden v. I’m Ready Productions, 693 F.3d
491, 501 (2012).
V.

The Parties’ Contentions

A.

TGS’s motion for summary judgment

TGS makes four arguments: (1) Geophysical
granted the Canada-Newfoundland and Labrador Offshore Petroleum Board an express license to copy and

App. 25
distribute the seismic data; (2) alternatively, Geophysical granted the Board an implied license to copy and
distribute the seismic data; (3) the Canada Oil and Gas
Lands Administration’s discretion to copy and distribute seismic data does not affect Geophyiscal’s license;
and (4) the scope of the Board’s license extends to
importation into the United States. (Docket Entry No.
96). Each of these arguments is summarized below.
Though discovery was limited to the implied license issue, TGS makes an express license argument
in its summary judgment motion. Id. at 19. TGS argues
that Geophysical’s permit for its seismic program included a provision stating that the “requirements and
services of the Federal agencies concerned are outlined
in the publication ‘Offshore Exploration.’ ” Id.; (Docket
Entry No. 96, Ex. 6). The requirements and services
outlined in the “Offshore Exploration” publication are:
(1) that operators like Geophysical must submit geophysical reports to the government as a condition of
conducting seismic surveys; and (2) that “copies of reports,” including “seismic sections and maps,” could be
purchased by third parties after the confidentiality period. (Docket Entry No. 96, Ex. 7 at 61-62).
TGS next argues that Geophysical granted an implied license under either Baisden’s totality test or Lulirama’s three-factor test. (Docket Entry No. 96 at 22).
TGS asserts that, under the Baisden totality test, the
information and circumstances available to Geophysical at the relevant times show that Geophysical intended to grant the Board an implied license. (Docket
Entry No. 96 at 24). TGS argues that at any “relevant

App. 26
time”—when Geophysical applied for its permit (March
24, 1982), or when it received the permit (May 4, 1982),
or from the first and last days it submitted the seismic
data at issue (November 26, 1982 and November 3,
1983)—ample information put Geophysical on notice
that the submitted seismic data could be copied and
distributed after the confidentiality period expired. Id.
TGS provides three examples:
1. The April 1979 “Offshore Exploration,”
which preceded all of Geophysical’s relevant
activities, was incorporated into Geophysical’s
permit. It provided the means by which third
parties could “obtain[ ] copies of reports,” including “seismic sections and maps.” (Docket
Entry No. 96, Ex. 7 at 62).
2. The November 1982 “Geophysical Surveys on Canada Lands: Guidelines for Approvals and Reports,” issued by the Canada
Oil and Gas Lands Administration, expressly
refer to “Offshore Exploration” as a “recommended reference publication” that “outline[d]
the responsibilities and requirements of federal departments and agencies concerned
with the offshore,” and provided the list of “released geophysical/geological reports to April
1979.” (Docket Entry No. 96, Ex. 8 at ¶ 1).
3. The January 1983 “Released Geophysical
and Geological Reports—Canada Lands,” issued by the Canada Oil and Gas Lands Administration, which pre-dated at least four
submissions of the seismic data, confirmed
that released seismic lines would be “reproduce[ed]” and “duplicat[ed]” by a commercial

App. 27
firm, and identified 698 speculative and nonspeculative geophysical programs that had
already been released for reproduction and
duplication. (Docket Entry No. 96, Ex. 15 at 5).
Fourteen of the programs had been conducted
by Geophysical. Id. at App’x 3.
(Docket Entry No. 96 at 24).
TGS argues that, in addition to satisfying the
Baisden test, Geophysical granted an implied license
under the Lulirama test. (Docket Entry No. 96 at 26).
TGS asserts that the first two of the Lulirama elements2—the licensee must request the creation of a
work and the licensor must make the work and deliver
it to the requesting licensee—are conceded in Geophysical’s complaint. (Docket Entry Nos. 96 at 26, 1 at
¶¶ 28-29).3 TGS asserts that the third element—the
2

TGS refers to the Lulirama “factors.” TGS incorrectly characterizes Lulirama. The Lulirama test is an element-based test,
meaning that each element must be satisfied, as opposed to a factorbased test where each factor is considered but not necessary.
3
The cited complaint paragraphs states: “28. Seismic service
companies such as GSI and TGSN have at all material times been
required by legislation in Canada to submit copies of collected
seismic materials to various Canadian regulatory boards including the Canada-Newfoundland and Labrador Offshore Petroleum
Board (“CNLOPB”). 29. CNLOPB is a Canadian federal/provincial
regulatory board created pursuant to the Canada Newfoundland
Atlantic Accord Implementation Act, S.C. 1987, c.3, as amended,
and the Canada-Newfoundland and Labrador Atlantic Accord Implementation Act, R.S.N.L. Pursuant to the Newfoundland Offshore Area Petroleum Geophysical Operations Regulations, SOR
95-334, passed pursuant to the Canada Newfoundland Offshore Atlantic Accord Implementation Act S.C. 1987, c.3, GSI was required
to, and did, submit to the CNLOPB a copy of the GSI Works.”

App. 28
licensor must intend that the requesting licensee copy
and distribute its work—is satisfied by the objective
information and circumstances that Geophysical knew
or should have known, as described above. (Docket Entry No. 96 at 26).
TGS next addresses two issues identified in the
memorandum and opinion denying the motion to dismiss.4 First, TGS argues that the Administration’s
discretion whether to copy and distribute submitted
seismic data, authorized by the Canada Oil and Gas
Act of 1982, does not affect the existence or validity of
an implied license. (Docket Entry No. 96 at 27); Geophysical Serv., Inc. v. Encana Corp. et al., 2016 ABQB
230, ¶ 163 (Ct. Queen’s Bench of Alberta 2016). TGS
cites two district court cases to support its argument
that whether the Administration had discretion has no
consequence for license existence or validity: Grant
Heilman Photography, Inc. v. McGraw-Hill Companies,
Inc., 28 F. Supp. 3d 399, 405 (E.D. Pa. 2014) and Warrick v. Roberts, 34 F. Supp. 3d 913, 921 (N.D. Ill. 2014).
TGS asserts that the Administration and its predecessors were actively copying and distributing seismic

4

“Did the Board have discretion to decide whether to copy
and send the data to those requesting it, as Geophysical argues?
If so, does the Board’s discretion affect whether Geophysical intended to grant an implied license that included copying and distribution? And if Geophysical granted an implied license, should
Geophysical have reasonably expected the license to extend to importation of copies of its works into the United States?” (Docket
Entry No. 86 at 26 (citations omitted)).

App. 29
data. (Docket Entry Nos. 96, Ex. 7 at 66-68, Ex. 15 at
App’x 3).
Second, TGS argues that the scope of Geophysical’s license extended to allow the exportation of the
seismic data into the United States. (Docket Entry No.
96 at 28). TGS cites the Eleventh Circuit’s holding that
“an implied license will be limited to a specific use only
if that limitation is expressly conveyed when the work
is delivered.” Latimer v. Roaring Toyz, Inc., 601 F.3d
1224, 1235 (11th Cir. 2010). TGS claims that no record
evidence shows that Geophysical sought or attempted
to restrict the scope of the license. (Docket Entry Nos.
96 at 2, Exs. 14, 16-18).
TGS’s also notes that the Canadian regulatory regime itself made clear that there were no restrictions
on the Administration’s ability to export seismic data
copies into the United States. (Docket Entry No. 96 at
28). TGS cites the declaration of Rowland J. Harrison,5
who stated: contends that TGS cannot claim third
party beneficiary status because Geophysical did not
“intend[ ] to secure a benefit to [TGS],” and Geophysical did not “enter[ ] into the contract directly for
[TGS’s] benefit.” Stine, 80 S.W.3d at 589.
27. To begin with, nothing in the Canada Oil
and Gas Land Regulations, the Canada Oil
and Gas Act, the Canada Petroleum Resources
5

Harrison is a Canadian lawyer and former Administration
employee with more than 40 years of experience in energy regulation and policy development as a senior government official,
partner in a national law firm, consultant to governments and industry, and an academic. (Docket Entry No. 96, Ex. 3).

App. 30
Act, or the practices of [the Administration]
limited dissemination of seismic data to within
Canada.
28. To the contrary, the policy underlying
the Regulatory Regime was to encourage exploration activities, including seismic surveying. In the early 1980s, the offshore exploration
industry in Canada was dominated by U.S.
and other multinational companies like Mobil
Oil (prior to its merger with Exxon), Exxon
(through its indirect Canadian subsidiary
Esso Resources), Chevron, Gulf, Shell, and
Texaco. It would have made no sense to deprive these companies of access to seismic
data. The purpose of the Regulatory Regime
(encouraging offshore exploration) would have
bene frustrated if the Regulatory Regime restricted access to seismic data in this way.
This is why the Regulatory Regime placed no
nationality restrictions during the exploration stage of resource development (although
the Regime did include certain financial incentives to encourage participation in exploration by Canadian companies).
(Docket Entry No. 96, Ex. 3 at ¶¶ 27-28). TGS, again
relying on Harrison’s declaration, points out that knew
how to place restrictions on non-Canadian participation in the regulatory scheme, as evidenced by the restriction that production licenses could issue only to
interest owners whose Canadian ownership rate was
at least 50%. Id. at ¶ 29.

App. 31
B.

Geophysical’s Response

Geophysical argues that its knowledge and intent
remain disputed because the facts TGS relies on relate
to a different company. (Docket Entry No. 98 at 12).
The seismic data at issue was created by a Delaware
GSI, a Delaware entity. Id.6 Geophysical did not purchase the data until 1994. Id. Geophysical argues that
because its predecessor obtained the permit to perform
the seismic surveys that resulted in the seismic data
at issue, the evidence of what was known at the time
is irrelevant and inconclusive as to Geophysical’s intent. Id. at 13 (“Geophysical is the plaintiff here, and it
is Geophysical’s intent that matters.”).
Geophysical also argues that TGS’s express license argument is flawed because Geophysical did not
grant TGS an express license. Id. at 21. Geophysical
asserts that TGS is not in privity with Geophysical. Id.
(“TGS is not a party to the permit, nor is TGS referred
to in the permit. . . . There was no offer by or to TGS to
enter into the permit, there was no acceptance by or
from TGS to enter the permit, there was no meeting of
the minds between Geophysical and TGS regarding
the permit, and neither executed or delivered the permit to the other with the intent that it be mutual or
binding.”). Geophysical argues that TGS cannot enforce the license because TGS is not in privity with
6

The surveys and their copyrights were purchased by Geophysical Speculative Incorporated in 1993. (Docket Entry Nos. 98
at 6 n.1, 98-3 at ¶ 22). Geophysical, the plaintiff in this case, purchased the surveys and their copyrights in 1994. (Docket Entry
Nos. 98 at 6 n.1, 98-3 at ¶ 24(a)).

App. 32
Geophysical. See Jordan v. Sony BMG Music Entm’t,
Inc., 637 F. Supp. 2d 442, 451 (S.D. Tex. 2008) (one
“may not enforce a contract to which he is not a party”).
Additionally, Geophysical
Geophysical next challenges TGS’s implied license
argument. (Docket Entry No. 98 at 22). Geophysical
argues that none of the Lulirama elements are met.
Id. at 25. First, Geophysical claims that because neither TGS nor the Administration requested the creation of the seismic-data copies, there was no request
for the seismic data. Id. Rather, Geophysical created
the works “as speculative seismic for non-exclusive licensing to energy and exploration companies.” Id. Second, Geophysical contends that the seismic data was
not delivered “to the licensee who requested it” because
speculative seismic is not created by request. Id. Third,
Geophysical argues that there is no “licensee-requester,”
and even if there was, there is no evidence that Geophysical intended the Administration to copy and distribute the seismic data to a requesting third party. Id.
Geophysical argues that Roland Harrison’s testimony is inadmissible, and that TGS’s reliance on Harrison’s declaration is misplaced, because the declaration
contains “opinions of law that go to the ultimate issues
and fail to satisfy FRE 702.” Id.; Owen v. Kerr-McGee
Corp., 698 F.2d 236, 240 (5th Cir. 1983). Geophysical
asserts that Harrison’s testimony is not based on facts
or specialized knowledge helpful in determining whether
Geophysical, or its predecessor Delaware GSI, knew
or should have known that the Canadian regulatory
regime could cause the seismic data submitted to be

App. 33
copied and distributed after the confidentiality period.
(Docket Entry No. 98 at 26). Geophysical argues that
TGS’s implied-license arguments “are legal arguments
that rely on its interpretation of Canadian legislation
and regulations, not facts.” Id. Lastly, Geophysical argues that the policies underlying United States copyright law, which encourage protecting individual effort
for personal gain, counsel against finding that Geophysical gave an implied license to allow its seismic
data to be copied and exported into the United States.
Id. at 28.
C.

TGS’s Reply

TGS contests Geophysical’s argument that “what
Delaware GSI should have known in the 1982-83 time
frame [is] not relevant or pertinent.” (Docket Entry
Nos. 98 at 13, 99 at 11). According to TGS, “Geophysical
argues that whether the Administration received an
implied license to copy and distribute the [seismic
data] in 1982 somehow can be determined based on
Geophysical’s subjective intent when it acquired the
[seismic data] in 1994. . . .” (Docket Entry No. 99 at 11).
TGS’s asserts that Geophysical’s argument is foreclosed by the principle that a buyer of property acquires only the rights a seller has to sell. Id. In other
words, if the Delaware entity granted an implied license, Geophysical could not obtain the seismic data
free of the constraints of that license. Nor can Geophysical revoke a license supported by consideration.
Id. at 11-12; Lulirama, 128 F.3d at 882. TGS offers a

App. 34
hypothetical to show the problems with Geophysical’s
argument:
Geophysical’s rule would allow a remorseful
licensor to unwind the license simply by transferring ownership of the underlying work to
an affiliated company. This case provides a
good example of that perverse result, as David
Einarsson is the former Delaware GSI vice
president who both sold the GSI Works on behalf of Geophysical Speculative (as its president) and acquired the GSI Works on behalf of
Geophysical (as its CEO). That David Einarsson may revoke a license by selling the underlying work to himself cannot be and is not the
law.
Id. at 12 (citations omitted).
TGS argues that Geophysical has created a straw
man by arguing that no license was granted to TGS.
Docket Entry No. 99 at 7. Rather, TGS argues, the issue
is whether Geophysical granted the Administration
(and therefore the Board) an express license. Id. TGS
asserts that Geophysical’s argument “would impose
copyright liability on any downstream recipient of a
copyrighted work if the work had been distributed by
a licensee,” which “would swallow the first sale doctrine nearly whole. . . .” Id. at 8. TGS disputes Geophysical’s claim that TGS is trying to enforce rights
under a contract to which it is not a party; instead,
TGS asserts that Geophysical authorized the copying
and distribution of the seismic data under the express

App. 35
terms of the Offshore Program Notice. Id.; (Docket Entry No. 96, Ex. 6).
TGS challenges Geophysical’s reliance on only the
Lulirama test for determining whether an implied license has been granted, citing Baisden. 693 F.3d at 501
(“[W]e have never held that an implied license could
not arise in other circumstances where the totality of
the parties’ conduct supported such an outcome.”). TGS
also argues that Geophysical’s argument that “TGS
and Geophysical never had a relationship from which
a meeting of the minds could be implied” is a red herring. (Docket Entry No. 99 at 11). Rather, it is objective
facts evidencing the parties’ intent that controls. Id. at
10-11; Latimer, 601 F.3d at 1235.
TGS defends its reliance on Harrison’s testimony,
asserting that his opinion “is rooted in facts, most of
which originated from his own personal knowledge.”
(Docket Entry No. 99 at 16). Harrison served as the director general of the Land Management Branch of the
Administration from January 1982 until July 1984.
(Docket Entry No. 96, Ex. 3 at ¶ 25). Based on this experience, “Harrison dealt daily with industry and had
personal knowledge of the issues and concerns (which
he documented) that industry representatives expressed to him between 1982 and 1984.” (Docket Entry
No. 99 at 17).
TGS contests Geophysical’s “ultimate issue” argument, quoting Federal Rule of Evidence 704(a), which
states: “[t]estimony in the form of an opinion or inference otherwise admissible is not objectionable because

App. 36
it embraces an ultimate issue to be decided by the trier
of fact.” FED. R. EVID. 704(a). TGS cites a host of cases
admitting expert testimony about what a reasonable
person should have known based on information available and circumstances existing at the time. See, e.g.,
Garcia v. Mendeke, 2016 U.S. Dist. LEXIS 186770, 2016
WL 8739854, at *3 (W.D. Tex. Sept. 30, 2016); In re
Methyl Tertiary Butyl Ether (MTBE) Products Liab.
Litig., 643 F. Supp. 2d 482, 498-99 (S.D.N.Y. 2009);
Bouygues Telecom, S.A. v. Tekelec, 472 F. Supp. 2d 722,
726 (E.D.N.C. 2007).
VI. Analysis
A.

The Express License Issue

Two of Geophysical’s arguments can be swiftly disposed of. First, Geophysical’s argument that its knowledge and intent remains disputed because another
entity—Delaware GSI—performed the seismic surveys
and created the seismic reports is wrong. (Docket Entry No. 98 at 12). Although Geophysical did not purchase the seismic data and the related copyrights until
1994, (Docket Entry Nos. 98 at 6 n.1, 98-3 at ¶ 24(a)),
Geophysical’s purchase did not destroy any license Delaware GSI had given to the Administration. Delaware
GSI could not transfer a right it did not have. “Copyright ownership is comprised of a bundle of rights; in
granting a nonexclusive license . . . [an owner] has
given up . . . one stick from that bundle. . . .” Effects Assocs., Inc. v. Cohen, 908 F.2d 555, 559 (9th Cir. 1990). Under Lulirama, Delaware GSI’s license was revocable

App. 37
because it was supported by consideration. 128 F.3d at
882. TGS persuasively argues that holding otherwise
is untenable: David Einarsson was the vice-president
of Delaware GSI before becoming the vice-president of
Geophysical Speculative, the company that bought the
seismic data in 1993. He then became Geophysical’s
chief executive officer, and in that role he purchased
the seismic data in 1994. (Docket Entry Nos. 84-1 at
49; 98-3 at 2-3). Agreeing with Geophysical would allow companies to sell their copyrights—even to a shell
or subsidiary—in order to evade the consequences of
their licenses. The relevant actions and intent are Delaware GSI’s, not Geophysical’s.
Second, Geophysical argues that no express license was granted to TGS because it was not a party
to the seismic survey permit. (Docket Entry No. 98 at
20-21). This argument is unpersuasive. The relationship central to the license issue is not between Geophysical and TGS. Rather, the question is whether
Geophysical granted a license to the Administration,
andby operation of law, to the Board.7 The license issue
turns on whether Geophysical granted the Administration a license to copy, distribute, and export the seismic
data the Administration received from Geophysical, after the confidentially period expired. Under Geophysical’s logic, Geophysical could sue any company that
7

The Canada-Newfoundland Atlantic Accord Implement Act
states that any licenses granted to the Administration transfer to
the Canada-Newfoundland and Labrador Offshore Petroleum
Board by operation of law. Canada-Newfoundland Atlantic Accord Implementation Act, S.C. 1987, c. 3 at § 205.

App. 38
ever received copies of Geophysical’s data from the Administration or from the Board, because none of those
companies was a party to the surveying permit. That
is another red herring and wrong.
Turning to the merits of the express-license issue,
Geophysical faces an uphill battle that it loses. Geophysical’s only response to TGS’s argument is that
TGS was not a party to the permit nor in privity with
Geophysical which, as discussed, is irrelevant. Instead,
the question this court must answer is whether, by applying for and receiving an offshore-program permit,
Geophysical granted the Administration an express
license to copy and distribute the seismic data Geophysical was required to submit, after the confidentiality period ended. The undisputed facts are that
Geophysical granted the Administration an express license, defeating Geophysical’s sole remaining directinfringement-by-unlawful-importation claim.
In the vacated motion to dismiss opinion issued in
March, 2015, this court held that Geophysical agreed
to comply with the Implementation Act and the Operations Regulations when it provided the Administration with the seismic data that resulted from the
surveying. (Docket Entry No. 28 at 16). The Implementation Act, which was assented to in 1987, does not provide a basis for determining whether Geophysical
granted the Board a license in 1982 or 1983, when Geophysical applied for a seismic surveying permit and
submitted seismic data resulting from that surveying.

App. 39
On the current record, TGS argues that Geophysical gave the Administration an express license to copy
and release its seismic data by agreeing to the Administration’s data-submission-and-release procedures incorporated into Geophysical’s offshore-program notice
application. (Docket Entry No. 96 at 19). The offshoreprogram notice that Geophysical signed on March 24,
1982, stated: “The requirements and services of the
Federal agencies concerned are outlined in the publication ‘Offshore Exploration.’ ” (Docket Entry No. 96,
Ex. 12). On May 4, 1982, the Administration returned
an approved offshore program notice, assigning Geophysical a new exploratory license number. (Docket
Entry No. 96, Ex. 13). The approved notice contained
the same reference to “Offshore Exploration”: “The
requirements and services of the Federal agencies concerned are outlined in the publication ‘Offshore Exploration.’ ” Id.
“Offshore Exploration” was issued by the Department of Energy, Mines and Resources’ Resource Management Branch in April 1979. (Docket Entry No. 96,
Ex. 7). The Administration succeeded the Department
in January 1982. (Docket Entry No. 96, Ex. 3 at ¶¶ 67).” Offshore Exploration” contains information and
procedures for offshore operators. The Foreword states:
The Resource Management Branch manages
and administers the federal interests in mineral resources off Canada’s East and West
Coasts and in Hudson Bay and Hudson Strait
regions.

App. 40
“Offshore Exploration” is prepared by the
Branch in response to the continuing need for
liaison between the oil and mining industries
and the various federal agencies concerned
with Canada’s interests offshore. The main
purposes of the publication are: to introduce
to operating companies the responsibilities
and requirements of federal agencies concerned with the Offshore; to note some of the
services available through agencies; and to
list the persons who may be contacted for assistance. The publication is free and supersedes the sixth issue dated January 1977. For
those who prefer a French language version of
this publication, issue 7 (1978), entitled “Exploration au large des côtes” is available.
Id. at iii.
Appendix A of “Offshore Exploration” describes
the availability of reports and materials:
Under the Canada Oil and Gas Land Regulations an operator is required to submit comprehensive reports on every program undertaken
in connection with the permittee’s offshore
acreage. These reports, together with associated items such as cores, cutting and paleontological materials derived from drilling
operations, are held strictly confidential for
the requisite period, and then made available
for public examination.
Information submitted by a company can
not be made available prior to its release
from confidential status without the written

App. 41
consent of the company. Certain general data
may be released at any time.
Release of Reports
...
Reports of geological and geophysical surveys
may be released two years after the surrender,
cancellation or expiry of the permit. All such
reports have been microfilmed, including seismic sections and maps. After release, paper
copies of seismic sections are available for examination only in Ottawa. Other regions have
microfilm copies of seismic sections. The written report plus maps are available in both
forms.
...
Obtaining Copies of Reports
...
Geological and geophysical reports including
seismic sections and maps may be purchased
after expiry of the confidential period from:
Orhans Reproductions and Photomapping Ltd.
907-9th Avenue S.W.
Calgary, Alberta
T2L 1L3
Id. at 61-62.
“Offshore Exploration” was incorporated into Geophysical’s offshore-program notice. (Docket Entry No.
96, Ex. 6). The case law is helpful:

App. 42
Under general contract principles, where a
contract expressly refers to and incorporates
another instrument in specific terms which
show a clear intent to incorporate that instrument into the contract, both instruments are
to be construed together. See 11 Williston on
Contracts § 30:25 (4th ed. 1999) (hereafter
“Williston”) (“Where a writing refers to another document, that other document, or the
portion to which reference is made, becomes
constructively a part of the writing, and in
that respect the two form a single instrument.”).
...
Under both general contract principles and
admiralty law, a separate document will become part of the contract where the contract
makes “clear reference to the document and
describes it in such terms that its identity
may be ascertained beyond doubt.” 11 Williston at § 30:25; see also New Moon Shipping
Co., 121 F.3d at 30. Terms incorporated by reference will be valid so long as it is “clear that
the parties to the agreement had knowledge
of and assented to the incorporated terms.” 11
Williston at § 30:25. Notice of incorporated
terms is reasonable where, under the particular facts of the case, “[a] reasonably prudent
person should have seen” them. Coastal Iron
Works, 783 F.2d at 582.
One Beacon Ins. Co. v. Crowley Marine Servs., Inc., 648
F.3d 258, 267-68 (5th Cir. 2011).

App. 43
“Offshore Exploration” is clearly referred to by
name in the offshore-program notice. (Docket Entry
No. 96, Ex. 6) (“The requirements and services of the
Federal agencies concerned are outlined in the publication ‘Offshore Exploration’ ”). “Offshore Exploration”
was issued by the Department of Energy, Mines and
Resources, the same department that created the offshore program notice. (Docket Entry No. 96, Exs. 6, 7).
The eighth issue of “Offshore Exploration,” the issue
cited above, was published in 1979, three years before
Geophysical submitted its offshore-notice program.
(Docket Entry No. 96, Ex. 7). A reasonably prudent
company engaged in offshore geophysical surveying
should have seen the publication and been familiar
with its terms. Geophysical cannot say that it did not
assent to the terms; it was Geophysical that submitted
the offshore program notice containing the “Offshore
Exploration” reference. (Docket Entry No. 96, Ex. 6).
“Offshore Exploration” describes the procedures
for submission and release of submitted materials, including “[r]eports of geological and geophysical surveys,” “seismic sections and maps.” (Docket Entry No.
96, Ex. 7 at 61). Geophysical argues that “TGS also
fails to explain why an obscure reference in a technical
government publication to a copying firm in Calgary
(on the other side of Canada from where TGS obtained
its copies) shows conclusively that Geophysical knew
or should have known that years later the GSI Works
at issue would be copied and imported by TGS from
the [Board] in St. John’s, Newfoundland.” (Docket Entry No. 98 at 8). Geophysical misses the point. The

App. 44
question is whether Offshore Exploration provided for
the copying and release of submitted seismic data—the
specifics of how and where the physical copying and
distribution would occur is irrelevant.
Finally, Geophysical put no limitation on the scope
of its license. Geophysical did not object to the copying,
distributing, or importing of the seismic data it submitted to the Administration. And, as Harrison stated
in his declaration, “nothing in the Canada Oil and Gas
Land Regulations, the Canada Oil and Gas Act, the
Canada Petroleum Resources Act, or the practices of
[the Board] limited dissemination of seismic data to
within Canada.” (Docket Entry No. 96, Ex. 3 at ¶ 27).
TGS’s summary judgment motion is granted. The
undisputed record evidence shows that Geophysical
granted the Board an express license to copy and export Geophysical’s submitted seismic data.
B.

The Implied License Issue

Even if Geophysical did not grant the Board an express license, the undisputed evidence shows that Geophysical knew or should have known that it granted
an implied license to copy and export Geophysical’s
submitted seismic data.
Under the Baisden test, an implied license can
arise “where the totality of the parties’ conduct supported such an outcome.” 693 F.3d at 501. “Courts focus
on objective evidence revealing the intent of the parties to determine if an implied license exists, and this

App. 45
inquiry also reveals the scope of that license.” Latimer,
601 F.3d at 1235; L.D. Brinkman v. Beaulieu of Am.,
Inc., 2002 U.S. Dist. LEXIS 29693, 2002 WL 32097534,
at *4 (W.D. Tex. Oct. 29, 2002), aff ’d sub nom. Brinkman v. Beaulieu of Am., 67 F. App’x 243 (5th Cir. 2003)
(“A court may find an implied license . . . when such a
license can be reasonably inferred from the objective
conduct of the parties.”). Even if Geophysical did not
give the Board an express license, the objective evidence that TGS has provided regarding its express license argument shows that Geophysical should have
known that by submitting an offshore program notice
and participating in the seismic data submission regime, it was impliedly granting a license to the Board
to copy and distribute the seismic data. Geophysical offers no evidence in its argument that would create a
material fact dispute.
First, “Offshore Exploration” was available to Geophysical, without any charge. It predated Geophysical’s offshore-program notice submission by three
years. (Docket Entry No. 96, Ex. 7). A company operating in the geophysical surveying industry clearly
could have, and should have, been aware of the contents of a publication issued by the Department of
Energy, Mines and Resources (the department that
managed and administered the federal interests in
mineral resources off Canada’s coasts and in the Hudson Bay and Hudson Strait regions) that detailed “information and procedures for offshore operators.” Id.
This is particularly true for Geophysical, because it
submitted an offshore-program notice that explicitly

App. 46
referenced “Offshore Exploration.” (Docket Entry No.
96, Ex. 6).
Second, in November 1982, the Administration issued another free publication, “Geophysical Surveys
on Canada Lands: Guidelines for Approvals and Reports.” (Docket Entry No. 96, Ex. 8). The “Guidelines for
Approvals and Reports” also expressly referred to “Offshore Exploration”:
The booklet “Offshore Exploration” is recommended as a reference publication for all activities pertaining to exploration in the eastcoast
offshore region. It outlines the responsibilities
and requirements of federal departments and
agencies concerned with the offshore and
notes some of their services; lists persons who
may be contacted for assistance; provides a
summary of exploratory work done to date;
and lists geophysical/geological reports to
April 1979.
Id. at ¶ 1. Geophysical should have been aware of the
contents of “Offshore Exploration” because earlier in
this litigation, Geophysical admitted that it was aware
of the “Guidelines for Approvals and Reports.” Geophysical argued it could not have granted a license to
copy its submitted seismic data because the “Guidelines for Approvals and Reports” “never mention copyright, importation, a privilege period, confidentiality
matters, or the manner in which information or documentation may be disclosed.” (Docket Entry No. 84 at
11). Having admitted that it was aware of and relied on
“Guidelines for Approvals and Reports,” Geophysical

App. 47
cannot argue that it did not, or should not, have known
about “Offshore Exploration.”
Third, and finally, in January 1983, the Administration issued “Released Geophysical and Geological
Reports—Canada Lands.” (Docket Entry No. 96, Ex.
15). The “Reports” predate at least four of Geophysical’s submissions of its seismic data. (Docket Entry
No. 96, Ex. 11 at 4, Ex. 15). Reports confirmed that released seismic lines would be “reproduce[ed]” and “duplicat[ed]” by a commercial firm, and identified 698
speculative and non-speculative geophysical programs
that had already been released for reproduction and
duplication. (Docket Entry No. 96, Ex. 15 at 5). Even
if Geophysical had been unaware of the fact that the
Board could copy and distribute seismic data it received
from permitted geophysical surveyors, Geophysical
should have known that the four post-“Reports” submissions could have been copied and imported.
Geophysical makes the same mistake in its implied-license argument that it did in its express-license
argument, by conflating or confusing the Board with
TGS. Geophysical argues that “TGS has offered no
evidence of any meeting of the minds between it and
Geophysical.” (Docket Entry No. 98 at 24). The proper
inquiry is whether there was a meeting of the minds
between Geophysical and the Board. There was clearly
a meeting of the minds between Geophysical and the
Board, as shown by: Geophysical’s submission of,
and the Board’s approval of, the offshore-program
notice; the Board’s publications describing the submission and release procedures for seismic data; and

App. 48
Geophysical’s submission of its seismic data in accordance with the Canadian laws and regulations.
Geophysical attacks Harrison’s declaration, arguing that has no specialized knowledge that would assist in determining what Geophysical knew or should
have known in 1982 and 1983. (Docket Entry No. 98 at
25). Geophysical also argues that TGS’s reliance on
“that rely on [TGS’s] interpretation of Canadian legislation and regulations, not facts” are legal arguments
that cannot show an implied license. Id. at 26. Geophysical is wrong. First, Harrison meets the Rule 702
expert standard. His lengthy background in the industry shows that he has experience and knowledge helpful in determining what a company in Geophysical’s
position knew or should have known during the relevant period. FED. R. EV. 702. Second, TGS does not
rely only on its interpretation of Canadian legislation
and regulations. It also accounts for Geophysical’s actions; namely, submitting the offshore program notice
and participating in the seismic-data-submission procedures. Geophysical’s and the Board’s conduct amply
supports finding that Geophysical granted the Board
with an implied license to copy, distribute, and export
Geophysical’s submitted seismic data.
The undisputed evidence shows that, as a matter
of law, Geophysical granted the Board an implied license to copy and export Geophysical’s submitted seismic data.

App. 49
VII. Conclusion
TGS’s summary judgment motion is granted,
(Docket Entry No. 96), on the basis of an implied license and, as an alternative, an express license. Because TGS has shown that Geophysical granted the
Board a license to copy, distribute, and export the seismic data it submitted to the Board, Geophysical’s sole
remaining direct-infringement-by-unlawful-importation
claim fails. Final judgment is entered separately.
SIGNED on June 19, 2018, at Houston, Texas.
/s/ Lee H. Rosenthal
Lee H. Rosenthal
Chief United States District Judge

FINAL JUDGMENT
For the reasons stated in the court’s Memorandum
and Opinion entered today, this action is dismissed
with prejudice. This is a final judgment
SIGNED on June 19, 2018, at Houston, Texas.
/s/ Lee H. Rosenthal
Lee H. Rosenthal
Chief United States District Judge

App. 50
Geophysical Servs. v.
TGS-NOPEC Geophysical Servs.
United States District Court for the
Southern District of Texas, Houston Division
November 21, 2017, Decided;
November 21, 2017, Filed, Entered
CIVIL ACTION NO. 14-1368
Counsel: For Geophysical Service Incorporated, Plaintiff: Joel B Rothman, LEAD ATTORNEY, Schneider
Rothman, Boca Raton, FL USA; Matthew J M Prebeg,
LEAD ATTORNEY, Prebeg Faucett Abbott PLLC,
Houston, TX USA; Aaron M. Panner, Kellogg Hansen
et al, Washington, DC USA; Brent Taylor Caldwell,
Prebeg Faucett & Abbott, PLLC, Houston, TX USA;
Collin Randall White, Kellog Hansen et al, Washington, DC USA.
For TGS-Nopec Geophysical Company, Defendant:
Melanie B Rother, LEAD ATTORNEY, Norton Rose
Fulbright US LLP, Houston, TX USA; Peter Conger
Tipps, LEAD ATTORNEY, Norton Rose Fulbright US
LLP, Houston, TX USA.
Judges: Lee H. Rosenthal, Chief United States District Judge.
Opinion by: Lee H. Rosenthal

App. 51
Opinion
MEMORANDUM AND OPINION
I.

Background

Geophysical Services Incorporated is a Canadian
company that collects seismic data by bouncing sound
waves off the ocean floor, recording the information
and processing, transcribing, and storing the information as seismic lines. Geophysical licenses the seismic data to oil and gas companies for use in oil, gas,
and other hydrocarbon exploration. Geophysical asserts a copyright interest in the seismic data under
United States law.
Canadian laws regulating offshore petroleum exploration and extraction require seismic services companies like Geophysical to get a permit before conducting
seismic surveys in Canadian waters. One condition for
getting a permit is that the company submit copies of
the seismic data it obtains from the surveying to the
Canadian government. The data is kept confidential
for a defined period, then released on specific request.
Geophysical followed this regulatory regime in 1983,
when it submitted copies of the seismic data generated
from its 1982 surveys in Canadian waters to the Canada-Newfoundland and Labrador Offshore Petroleum
Board.1

1

Additional facts concerning the Canadian regulatory regime and the parties’ actions are provided in the court’s earlier
Memorandum and Opinion, Docket Entry No. 28, at 2-6.

App. 52
In 1999, TGS-NOPEC Geophysical Services (“TGS”),
a Houston company, requested copies of the seismic
data that Geophysical had filed with the Board in
1983. Because the confidentiality period had expired,
the Board made copies and sent them to TGS at its
Houston address. TGS performed seismic surveys at
several of the same locations Geophysical had surveyed in 1982. TGS licensed the seismic data it collected to oil and gas companies.
Geophysical discovered TGS’s actions in 2013 and
sued in May 2014. The complaint alleges that TGS directly and contributorily infringed Geophysical’s copyrights in the 1982 seismic data by requesting copies
from the Board; making the copies it received from the
Board available to third parties; creating derivative
works by surveying the locations disclosed in the Geophysical seismic lines to collect its own seismic data,
which it licensed to third parties; and licensing and
distributing copies of these derivative works without
including Geophysical’s copyright-management information. (Docket Entry No. 1).
TGS moved to dismiss, arguing that Geophysical’s
complaint failed to state a claim and was barred by
the act-of-state doctrine and by international comity.
(Docket Entry No. 10). After briefing and argument,
the court granted TGS’s motion to dismiss. (Docket
Entry No. 28). Geophysical filed an interlocutory appeal challenging the dismissals of the unauthorizedimportation basis of its direct infringement claim and
the dismissal of the contributory infringement claim.
Geophysical Serv., Inc. v. TGS-NOPEC Geophysical

App. 53
Co., 850 F.3d 785, 792 (5th Cir. 2017). The Fifth Circuit
affirmed the dismissal of Geophysical’s contributory infringement claim on extraterritoriality grounds, but reversed the dismissal of the unauthorized-importation
component of Geophysical’s direct infringement claim.
Id. at 799-800. The Fifth Circuit’s direction on remand
stated as follows:
[T]he district court must first decide whose
law governs the determination whether the
copies imported by TGS were “lawfully made”
under § 109. It must then apply the legal principles that it determines to govern. For example, if the district court finds that Canadian
law controls the inquiry, then it may be helpful to await the input of the Canadian courts
on Geophysical’s challenge to the [Board’s]
practice of making and releasing copies of
seismic lines. Alternatively, if the district
court finds that United States law controls,
then it may revisit its initial inclination that
Geophysical granted the [Board] an implied
license—though the creation of an implied license, which turns on the copyright holder’s
intent, is a fact question.
Id.2
2

The remanded statutory interpretation question assumes
that United States copyright law governs the underlying suit. Geophysical brought this action under the United States Copyright
Act, 12 U.S.C. §§ 501 and 1202 and there is no dispute that
United States law applies. The remanded choice-of-law question
requires the court to decide which legal standard—American or
Canadian—determines whether a copy was “lawfully made” under § 109 of the United States Copyright Act.

App. 54
Following the Fifth Circuit’s remand, TGS filed a
renewed motion to dismiss, Geophysical responded,
and TGS replied. (Docket Entry Nos. 62, 72, 74). After
the court heard oral argument, (Docket Entry No. 79),
TGS filed a supplemental reply, Geophysical filed a
supplemental response, and TGS filed a second supplemental reply. (Docket Entry Nos. 81, 84, 85).
Based on the complaint, (Docket Entry No. 1), the
motion to dismiss, the parties’ briefing and supplemental briefing, the ora argument, and the applicable
law, the court denies TGS’s renewed motion to dismiss
and sets a scheduling and status hearing for December 1, 2017 at 1:30 p.m. The reasons for the ruling are
explained below.
II.

The Rule 12(b)(6) Legal Standard

Rule 12(b)(6) allows dismissal if a plaintiff fails “to
state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). Rule 12(b)(6) must be read in conjunction with Rule 8(a), which requires “a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a) (2). A complaint must
contain “enough facts to state a claim to relief that is
plausible on its face.” Bell Atlantic Corporation v.
Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167
L. Ed. 2d 929 (2007). Rule 8 “does not require ‘detailed
factual allegations,’ but it demands more than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009) (citing Twombly, 550

App. 55
U.S. at 555). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (citing Twombly,
550 U.S. at 556). “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more than
a sheer possibility that a defendant has acted unlawfully.” Id. (citing Twombly, 550 U.S. at 556).
To withstand a Rule 12(b)(6) motion, a “complaint
must allege ‘more than labels and conclusions,’ ” and
“ ‘a formulaic recitation of the elements of a cause of
action will not do.’ ” Norris v. Hearst Trust, 500 F.3d
454, 464 (5th Cir. 2007) (quoting Twombly, 550 U.S. at
555). “Nor does a complaint suffice if it tenders ‘naked
assertion[s]’ devoid of ‘further factual enhancement.’ ”
Iqbal, 556 U.S. at 678 (alteration in original) (quoting
Twombly, 550 U.S. at 557). “[A] complaint does not
need detailed factual allegations, but must provide the
plaintiff ’s grounds for entitlement to relief—including
factual allegations that when assumed to be true ‘raise
a right to relief above the speculative level.’ ” Cuvillier
v. Sullivan, 503 F.3d 397, 401 (5th Cir. 2007) (quoting
Twombly, 550 U.S. at 555). “Conversely, when the allegations in a complaint, however true, could not raise a
claim of entitlement to relief, this basic deficiency
should be exposed at the point of minimum expenditure of time and money by the parties and the court.”
Id. (quoting Twombly, 550 U.S. at 558) (internal quotation marks and alteration omitted).
When a plaintiff ’s complaint fails to state a claim,
the court should generally give the plaintiff a chance

App. 56
to amend the complaint under Rule 15(a) before dismissing the action with prejudice, unless it is clear that
to do so would be futile. See Carroll v. Fort James Corp.,
470 F.3d 1171, 1175 (5th Cir. 2006) (Rule 15(a) “evinces
a bias in favor of granting leave to amend”); Great
Plains Trust Co. v. Morgan Stanley Dean Witter & Co.,
313 F.3d 305, 329 (5th Cir. 2002) (“[D]istrict courts often afford plaintiffs at least one opportunity to cure
pleading deficiencies before dismissing a case, unless
it is clear that the defects are incurable or the plaintiffs
advise the court that they are unwilling or unable to
amend in a manner that will avoid dismissal.”). A court
in its discretion may deny a motion to amend for futility if the amended complaint would fail to state a claim
upon which relief could be granted. Villarreal v. Wells
Fargo Bank, N.A., 814 F.3d 763, 766 (5th Cir. 2016) (citing Stripling v. Jordan Productions Co., LLC, 234 F.3d
863, 873 (5th Cir. 2000)). The decision to grant or deny
leave to amend “is entrusted to the sound discretion of
the district court.” Pervasive Software Inc. v. Lexware
GmbH & Co., 688 F.3d 214, 232 (5th Cir. 2012).
In considering a Rule 12(b)(6) motion to dismiss, a
court limits itself to the contents of the pleadings, with
an exception. In Collins v. Morgan Stanley Dean Witter,
224 F.3d 496, 498-99 (5th Cir. 2000), the Fifth Circuit
approved the district court’s consideration of documents the defendant attached to a motion to dismiss.
The Fifth Circuit made it clear that “such consideration is limited to documents that are referred to in the
plaintiff ’s complaint and are central to the plaintiff ’s
claim.” Scanlan v. Tex. A & M Univ., 343 F.3d 533, 536

App. 57
(5th Cir. 2003) (citing Collins, 224 F.3d at 498-99).
Other courts approve the same practice. See Venture
Assocs. Corp. v. Zenith Data Sys. Corp., 987 F.2d 429,
431 (7th Cir. 1993) (“Documents that a defendant attaches to a motion to dismiss are considered part of the
pleadings if they are referred to in the plaintiff ’s complaint and are central to her claim.” (citations omitted)); see also Field v. Trump, 850 F.2d 938, 949 (2d
Cir. 1988) (citation omitted); Branch v. Tunnell, 14 F.3d
449, 453-54 (9th Cir. 1994), overruled on other grounds
by Galbraith v. County of Santa Clara, 307 F.3d 1119
(9th Cir. 2002).
When “matters outside the pleadings” are submitted in support of or in opposition to a Rule 12(b)(6)
motion to dismiss, Rule 12(b) grants courts discretion
to accept and consider those materials, but does not
require them to do so. See Prager v. LaFaver, 180 F.3d
1185, 1188-89 (10th Cir. 1999); Isquith v. Middle S.
Utils., Inc., 847 F.2d 186, 193 n.3 (5th Cir. 1988) (quoting
5C Wright & Miller, Federal Practice and Procedure
§ 1366). A court exercises this discretion by determining whether the proffered material, and the resulting
conversion from the Rule 12(b)(6) to the Rule 56 procedure, is likely to facilitate disposing of the action. Isquith,
847 F.2d at 193 n.3. If the court decides to consider
such extraneous material, then the court must treat
the Rule 12(b)(6) motion as a motion for summary judgment under Rule 56. Fed. R. Civ. P. 12(d). If the court
refuses to consider those materials outside the pleadings, then the Rule 12(b)(6) motion remains intact and

App. 58
may be decided on its merits under the appropriate
standard of review.
III. Interpreting “Lawfully Made Under This
Title”
A.

The Interpretation Issues

Under United States copyright law, a copyright
owner has the exclusive right “to do and to authorize”
certain actions involving a copyrighted work. 17 U.S.C.
§ 106. Those actions include “distribut[ing] copies or
phonorecords of the copyrighted work to the public by
sale or other transfer of ownership, or by rental, lease,
or lending.” Id. at § 106(3). The copyright owner’s exclusive right to distribute encompasses the right to
prohibit distribution of the copyrighted work, including
importation into the United States, by others without
the owner’s permission. Id. at § 602(a)(1) (“Importation
into the United States, without the authority of the
owner of copyright under this title, of copies or phonorecords of a work that have been acquired outside the
United States is an infringement of the exclusive right
to distribute copies or phonorecords under section
106.”).
The distribution right is exclusive, but it is not
absolute. One limit is the first sale doctrine, which
dates back to English common law. Kirtsaeng v. John
Wiley & Sons, Inc., 568 U.S. 519, 133 S. Ct. 1351, 185
L. Ed. 2d 392 (2013) (citing 1 E. Coke, Institutes of the
Laws of England § 360 (1628)). The doctrine was first
recognized in the United States in a 1908 Supreme

App. 59
Court opinion holding that the copyright statutes did
not grant a copyright owner the right to control all
sales for the indefinite future. The Court stated:
In our view the copyright statutes, while protecting the owner of the copyright in his right
to multiply and sell his production, do not create the right to impose, by notice, such as is
disclosed in this case, a limitation at which
the [work] shall be sold at retail by future purchasers, with whom there is no privity of contract. This conclusion is reached in view of the
language of the statute, read in the light of its
main purpose to secure the right of multiplying copies of the work,—a right which is the
special creation of the statute. . . . To add to
the right of exclusive sale the authority to control all future retail sales, by a notice that
such sales must be made at a fixed sum, would
give a right not included in the terms of the
statute, and, in our view, extend its operation,
by construction, beyond its meaning, when interpreted with a view to ascertaining the legislative intent in its enactment.
Bobbs-Merrill Co. v. Straus, 210 U.S. 339, 350-51, 28
S. Ct. 722, 52 L. Ed. 1086, 6 Ohio L. Rep. 323 (1908).
The statute currently codifying the first sale doctrine
provides: “Notwithstanding the provisions of section
106(3), the owner of a particular copy or phonorecord
lawfully made under this title, or any person authorized by such owner, is entitled, without the authority
of the copyright owner, to sell or otherwise dispose of
the possession of that copy or phonorecord.” 17 U.S.C.

App. 60
§ 109(a) (emphasis added). The doctrine “reflects the
fundamental principle of copyright that ownership of
the copyright in a work is distinct from ownership of
the material object that embodies the work.” Geophysical, 850 F.3d at 793. A copyright owner’s distribution right ends when a “lawfully made” copy has been
transferred to a third party.
The Fifth Circuit remanded this case “for determination of the proper standard by which to assess
whether imported copies made abroad were lawfully
made under § 109 and application of that standard.”
Id. at 796. That “proper standard” has long been elusive,3 and the parties dispute what the phrase “lawfully made under this title” means. The approaches to
interpreting the phrase are analyzed below.

3

The phrase has caused uncertainty for both judges and
scholars. See John Wiley & Sons, Inc. v. Kirtsaeng, 654 F.3d 210,
220 (2d Cir. 2011), rev’d and remanded, 568 U.S. 519, 133 S. Ct.
1351, 185 L. Ed. 2d 392 (2013) (describing § 109(a) as an “utterly
ambiguous text”); Robert A. Paul, Black and White: A Path Toward Clarity for Copyright Law and Gray Market Goods, 23 DEPAUL J. ART TECH. & INTELL. PROP. L. 155, 200 (2012); Patrick J.
Coyne, The First Sale Doctrine After Costco: Brilliantly Reconciling Decades of Legislative Revision; The Forgotten Curve of the
Manufacturing Clause; or Just Plain Bad Statutory Drafting?,
6 AKRON INTELL. PROP. J. 19 (2012); Alex N. Rosenblum, Wiley’s
First Sale Folly: The Irrelevance of Location of Manufacture
When Raising a First-Sale Defense, 19 SW. J. INT’L L. 231 (2012);
2-8 MELVILLE B. NIMMER & DAVID NIMMER, NIMMER ON COPYRIGHT
§ 8.13[B][3][c][v][I] (2017) (“A whole new layer of uncertainty now
attends this entire body of law, requiring yet a fourth Supreme
Court opinion to elaborate.”).

App. 61
B.

The Current Law

The Supreme Court has twice reviewed the interplay between § 602(a)’s importation restriction and
§ 109(a)’s first sale doctrine. In 1998, the Court addressed “whether the ‘first sale’ doctrine endorsed in
§ 109(a) is applicable to imported copies.” Quality King
Distributors, Inc. v. L’anza Research Intern., Inc., 523
U.S. 135, 138, 118 S. Ct. 1125, 140 L. Ed. 2d 254 (1998).
L’anza, a California corporation, sold hair products to
domestic distributors who agreed to distribute the
products to authorized vendors in limited locations. Id.
L’anza also sold its products to foreign distributors at
prices much cheaper than it charged the domestic distributors. Id. at 139. Products sold to foreign distributors made their way back into the United States and
were sold to vendors without L’anza’s authorization.
Id. These vendors sold the products at cheaper prices
than the authorized domestic distributors charged. Id.
L’anza sued.
The Court held that § 602(a) “does not categorically prohibit the unauthorized importation of copyrighted materials,” explaining that:
[a]fter the first sale of a copyrighted item
“lawfully made under this title,” any subsequent purchaser, whether from a domestic or
from a foreign reseller, is obviously an “owner”
of that item. Read literally, § 109(a) unambiguously states that such an owner “is entitled,
without the authority of the copyright owner,
to sell” that item. Moreover, since § 602(a)
merely provides that unauthorized importation

App. 62
is an infringement of an exclusive right “under section 106,” and since that limited right
does not encompass resales by lawful owners,
the literal text of § 602(a) is simply inapplicable to both domestic and foreign owners of
L’anza’s products who decide to import them
and resell them in the United States.
Id. at 144-45. Because the first sale doctrine limits
§ 106, and because importation under § 602(a) is a violation of § 106(3), the first sale doctrine also limits
§ 602(a). The defendants in Quality King were shielded
from copyright infringement liability because they
were the valid owners of “lawfully made” products. But
the facts of Quality King made the holding narrow. The
products at issue were manufactured in the United
States, exported to foreign distributors, and imported
back into the United States. The Court did not address
situations “in which the allegedly infringing imports
were manufactured abroad.” Id. at 154 (Ginsburg, J.,
concurring).
Fifteen years later, in Kirtsaeng v. John Wiley &
Sons, Inc., the Supreme Court decided whether the
selling of products manufactured outside the United
States and imported into the country were sales “lawfully made under this title” for purposes of the first sale
doctrine.4 568 U.S. at 525. The respondent, John Wiley
4

In 2010, the Court released a per curiam decision without
comment in Costco Wholesale Corp. v. Omega, 562 U.S. 40, 131
S. Ct. 565, 178 L. Ed. 2d 470 (2010). The decision affirmed the
Ninth Circuit’s approach of interpreting “lawfully made under
this title” as applying “only to copies legally made . . . in the
United States.” Omega S.A. v. Costco Wholesale Corp., 541 F.3d

App. 63
& Sons, was an academic textbook publisher that sold
books in the United States. Id. at 525. John Wiley also
authorized its wholly owned foreign subsidiary to publish, print, and sell “essentially equivalent versions” of
the same textbooks in Asia. Id. at 525-26. Kirtsaeng, a
citizen of Thailand studying in the United States, took
advantage of the lower prices of the Asian textbooks by
having family and friends buy copies of the textbooks
in Thailand and mail them to Kirtsaeng in the United
States, where he sold them for less than the United
States distributors. Id. at 527. John Wiley sued, alleging that Kirtsaeng’s unauthorized importation of
its textbooks violated § 602’s import prohibition. Id.
Kirtsaeng argued that because the textbooks were
“lawfully made” in Asia and he had lawfully obtained
them in Asia, he could import and sell the books in the
United States without John Wiley’s permission. Id.
The question before the Supreme Court was
“whether the words ‘lawfully made under this title’ restrict the scope of § 109(a)’s ‘first sale’ doctrine geographically.” Id. John Wiley argued that there was a
geographical limitation on the first sale doctrine, making it inapplicable to Kirtsaeng’s importation of textbooks published abroad. The Court noted rulings made
by the Second Circuit and the Ninth Circuit, and the

982 (9th Cir. 2008). The Justices divided 4-4 because one Justice
recused. Omega, 562 U.S. at 40. The Ninth Circuit’s ruling was
abrogated by Kirtsaeng.

App. 64
argument of the Solicitor General, against the existence of a geographical limit.5
The Supreme Court declined to recognize a geographical limit on the first sale doctrine. Agreeing with
Kirtsaeng, the Court held that “ ‘lawfully made under
this title’ means ‘in accordance with’ or ‘in compliance
with’ the Copyright Act.” Id. at 530. The Court found
that this interpretation gave meaning to each word of
the five-word phrase: “The first two words of the
phrase, ‘lawfully made,’ suggest an effort to distinguish
those copies that were made lawfully from those that
were not, and the last three words, ‘under this title,’ set
forth the standard of ‘lawful[ness].’ ” Id.
But Kirtsaeng did not provide an answer to the
question here: what body of law applies to determine
whether a copy was made lawfully in the first place?
The Court did not need to reach this question in
Kirtsaeng because the Asian textbooks were clearly
lawfully published and sold in Asia. The parties agreed
that the Asian textbooks were made with John Wiley’s
permission. Id. at 526. Read narrowly, “Kirtsaeng stands
5

The Second Circuit had interpreted “lawfully made under
this title” to mean “made in territories in which the Copyright Act
is law,” encompassing only copies manufactured domestically.
Kirtsaeng, 654 F.3d at 222. The Ninth Circuit had held that the
first sale doctrine applied to copies manufactured in the United
States and copies created abroad but sold in the United States
with the copyright owner’s authority. Denbicare U.S.A. Inc. v.
Toys R Us, Inc., 84 F.3d 1143, 1149-50 (9th Cir. 1996). The Solicitor General argued that the doctrine applied only to copies made
in the United States, “subject to” and “in compliance with” the
Copyright Act. Kirtsaeng, 568 U.S. at 528-29.

App. 65
only for the proposition that permission from the a
copyright owner to produce copies abroad extinguishes
his or her rights to object to their later importation
into the United States.” 2-8 Nimmer on Copyright
§ 8.13[B][3][c][v][I].
Geophysical and TGS dispute whether the copy of
the seismic data that TGS requested and that the Canadian Board made and sent to TGS in the United
States was lawfully made. The choice-of-law question
left open in Kirtsaeng must be addressed.
C.

The Parties’ Contentions

Geophysical argues that United States copyright
law controls whether the copies TGS imported were
“lawfully made.” (Docket Entry No. 72, at 13). Geophysical’s argument is based on interpreting “under this title” to mean “under the Copyright Act,” making that
Act the “standard of lawfulness” regardless of where
the work or copy was made. Kirtsaeng, 568 U.S. at 52829 (quotation and alteration omitted). Under Geophysical’s interpretation:
[A] copy made anywhere in the world in a way
that does not comply with U.S. law is not ‘lawfully made’ for purposes of the first sale doctrine. Where foreign law and U.S. law differ, to
decide whether a copy was ‘lawfully made,’ a
‘minute comparison must be undertaken to
answer the question whether the conduct validated abroad would be lawful, assuming that
Title 17 applied to that territory.’

App. 66
(Docket Entry No. 72, at 14) (citing 2-8 Nimmer On
Copyright § 8.13[B][3][c][v][I], n.336). Under this interpretation, the court determines whether making
the copy of the seismic data in Canada satisfied Title
17, assuming that it applied.
TGS argues that “lawfully made under this title”
means a nonpirated work made under either Title 17
or under foreign law “similar to or consistent” with
that domestic law. (Docket Entry No. 62, at 18). TGS
points to Kirtsaeng to support its interpretation:
Kirtsaeng provided guidance on how to construe the five words—“lawfully made under
this title”—that are critical in this case. A
copy is “lawfully made under this title” if it is
either (1) made “in compliance with” the Copyright Act, or (2) made “in accordance with”
the Copyright Act. To be in “accord” with
something can mean “to be consistent or in
harmony” with it. See Merriam-Webster Online Dictionary (2017); The American Heritage Dictionary of the English Language (5th
ed. 2011) (“To be in agreement, unity, or harmony.” . . . Applying that definition means, not
that the Copyright Act must literally apply
(because it has no extraterritorial reach), but
that the foreign country’s law must be similar
to or consistent with U.S. copyright law.
(Docket Entry No. 62, at 17-18) (citation omitted). Under TGS’s interpretation, if “under this title” refers to
Title 17 and to similar foreign law, and if the “foreign
copy does not constitute a pirated work,” then “so long
as it is lawfully made by the copy ‘owner,’ it is entitled

App. 67
to first-sale protection.” Id. at 18. TGS contends that
its interpretation makes linguistic sense, is “consistent
with the principle that the Copyright Act does not
apply extraterritorially,” and fulfills the legislative intent. Id. Under this interpretation, the court determines whether the copying of the seismic data in
Canada satisfied Title 17 or a similar Canadian law.
D.

Other Interpretations

The parties’ arguments are not the only interpretations of “lawfully made under this title.” One other
interpretation is the “look-to-local-copyright-law approach.” Under this approach, “the question would be
whether the manufacturer acting in [a foreign city]
complied with the applicable law in [the foreign city’s
country], in order to fall within Kirtsaeng’s regime of
international exhaustion.” 2-8 Nimmer On Copyright
§ 8.13[B][3][c][v][III]. This approach has been criticized, and with reason. First, it reads “under this title”
out of the statute by making the lawfulness of a foreign
copy controlled only by foreign law. Second, copies that
are pirated under United States law could lawfully be
imported into the United States as long as the copies
were made in countries that did not prohibit them
as pirated works. Copies made in countries without
any copyright laws would be “lawfully made,” even if
the copies were clearly pirated under American law.
Kirtsaeng does not permit this result. 568 U.S. at 535
(“Section 109(a) now makes clear that a lessee of a copy
will not receive ‘first sale’ protection but one who owns
a copy will receive ‘first sale’ protection, provided, of

App. 68
course, that the copy was ‘lawfully made’ and not pirated.” (emphasis added)). The “look-to-local-copyrightlaw approach” does not work.
Another interpretation is the “hyper-literal approach.” This approach assumes that “one could interpret copies to be made ‘lawfully under this title’ to the
extent that they do not fall directly afoul of U.S. Copyright law.” 2-8 Nimmer On Copyright § 8.13[B][3][c][v][I].
This approach has also been criticized, again with reason. Copies unlawfully made by United States standards—or even by the standards of the country in which
the copies were created—would enjoy protection under
§ 109(a) so long as no part of Title 17 explicitly prohibited the copying. This interpretation could, as under
the “look-to-local-copyright-law approach,” make clearly
pirated copies saleable without restriction. Kirtsaeng
is inconsistent with this approach as well.
IV. Analyzing the Interpretations
A.

The Law that Provides the Legal Standard

“As with all issues of statutory interpretation, the
appropriate place to begin is with the text itself.” Legacy Cmty. Health Servs., Inc. v. Janek, 184 F. Supp. 3d
407, 423 (S.D. Tex. 2016). The Fifth Circuit noted that
the words “this title,” in the phrase “lawfully made under this title,” “presumably refer[ ] to the title in which
it appears, the Copyright Act.” Geophysical Service,
Inc. v. TGS-NOPEC Geophysical Co., 850 F.3d 785, 79596 (5th Cir. 2017). In Kirtsaeng, the Supreme Court
held that “ ‘lawfully made under this title’ means ‘in

App. 69
accordance with’ or ‘in compliance with’ the Copyright
Act.” Kirtsaeng, 568 U.S. at 530. Relying on Kirtsaeng,
TGS argues that “[a]pplying that definition means, not
that the Copyright Act must literally apply (because it
has no extraterritorial reach), but that the foreign
country’s law must be similar to or consistent with
U.S. copyright law.” (Docket Entry No. 62, at 18). TGS’s
argument rests on interpreting “in accordance with”
to mean “consistent or in harmony with.” Id. at 17-18
(quotation omitted). Under TGS’s reading, creating a
work or copy in compliance with a foreign copyright
law that is “similar” to the United States Copyright Act
makes the work or copy “lawfully made.” TGS’s interpretation assumes that “this title” in § 109(a) refers to
Title 17, but that Kirtsaeng’s gloss on the statutory
language expands “this title” to foreign copyright laws
in certain circumstances.
An example shows why TGS’s broad interpretation is problematic. Consider two copyright laws, 17
U.S.C. § 302(a) and a foreign equivalent. Section 302(a)
states that the “[c]opyright in a work created on or after January 1, 1978, subsists from its creation and, except as provided by the following subsections, endures
for a term consisting of the life of the author and 70
years after the author’s death.” Assume that the foreign county’s copyright law provided that the “copyright in a work created on or after January 1, 1977,
subsists from its creation and, except as provided by
the following subsections, endures for a term consisting of the life of the author and 68 years after the author’s death.”

App. 70
The foreign country’s copyright law is “similar” in
some way to § 302(a). Both the foreign law and § 302(a)
define the period before a work enters the public
domain. But the foreign law’s date of application is
one year earlier and the copyright term is two years
shorter than under the United States law. They are
inconsistent to this extent.
Under TGS’s interpretation, the foreign law would
“not offend the principles and objectives of the U.S.
Copyright Act,” making any copies lawfully created
under the foreign law to be “in accord with U.S. law
and thus [ ] ‘lawfully made under this title.’ ” (Docket
Entry No. 47, at 4). Under the TGS approach, a copy of
a work created on January 1, 1979 in the foreign country 69 years after the author’s death, without any other
authorization, would be “lawfully made” even though
§ 302(a) of Title 17 provides for a 70-year post-death
copyright term. TGS’s interpretation does not take into
account foreign laws that permit copies that would be
unlawful if made under United States copyright law.
Geophysical’s interpretation does this. Geophysical’s interpretation asks a court to assume that Title
17 applies abroad and ask whether the foreign-made
copy would have violated Title 17, even if this means
engaging in a “minute comparison . . . to answer the question whether the conduct validated abroad would be
lawful. . . .” 2-8 Nimmer On Copyright § 8.13[B][3][c][v][I],
n.336. Under Geophysical’s interpretation, a copy of a
work created on January 1, 1979 in the foreign country
69 years after the author’s death, without any other
authorization, would not be “lawfully made” because

App. 71
§ 302(a) of Title 17 provides for a 70-year post-death
copyright term. But if the copy of the 1979 work was
made in the foreign country 71 years after the author’s
death, it would be “lawfully made” under Title 17, even
though the foreign law is not identical to § 302(a). Geophysical’s interpretation is consistent with Kirtsaeng’s
language. Creation of a work “in compliance with” Title
17, under Title 17 itself or under an identical foreign
law, is “lawfully made.” Creation of a work “in accordance with” Title 17, under a foreign law in a manner
that would not violate Title 17 if Title 17 applied, is
“lawfully made.”
Both the Fifth Circuit and TGS acknowledge the
difficulties that this application of United States copyright law to foreign-made copies creates. Geophysical,
850 F.3d at 796 (“But applying United States law
seems to foul the principle that the Copyright Act has
no extraterritorial application, and creates some conceptual awkwardness where, like here, the foreignmade copies were made pursuant to some legal regime
that finds no analog in United States law.”); see also
Docket Entry No. 62, at 5. Justice Kagan’s concurrence
in Kirstaeng sheds some light on the extraterritoriality
question. The concurrence noted that the Court:
interpret[ed] § 109(a) as applying only to copies whose making actually complied with Title
17, or would have complied with Title 17 had
Title 17 been applicable (i.e., had the copies
been made in the United States). . . . Congress, however, used express language when
it called for such a counterfactual inquiry in

App. 72
17 U.S.C. §§ 602(a)(2) and (b). See § 602(a)(2)
(“Importation into the United States or exportation from the United States, without the authority of the owner of copyright under this
title, of copies or phonorecords, the making of
which either constituted an infringement of
copyright, or which would have constituted an
infringement of copyright if this title had been
applicable, is an infringement of the exclusive
right to distribute copies or phonorecords under section 106.” (emphasis added)); § 602(b)
(“In a case where the making of the copies or
phonorecords would have constituted an infringement of copyright if this title had been
applicable, their importation is prohibited.”
(emphasis added)). Had Congress intended
courts to engage in a similarly hypothetical
inquiry under § 109(a), Congress would presumably have included similar language in
that section.
568 U.S. at 563-64 (Kagan, J., concurring) (emphasis in
original).
Justice Kagan’s concurrence confirms that the
Kirtsaeng majority’s interpretation should be read as
effectively applying § 109 extraterritorially. See id. at
530 (majority op.) (interpreting “§ 109’s ‘first sale’ doctrine . . . [to] apply to copyrighted works as long as
their manufacture [meets] the requirements of American copyright law”). The Kirtsaeng majority emphasized that while Title 17 “does not instantly protect an
American copyright holder from unauthorized piracy
taking place abroad . . . [it] does not mean the Act is
inapplicable to copies made abroad.” 568 U.S. at 531

App. 73
(emphasis in original); see also 3-17 Nimmer On Copyright § 17.02 (“[C]opyright laws do not have any
extraterritorial operation. . . . This principle, however, requires some qualification.”). As the majority
explained, Title 17 “ ‘applies’ to an Irish manuscript
laying in its author’s Dublin desk drawer as well as to
an original recording of a ballet performance first
made in Japan and now on display in a Kyoto art
gallery.” Id. at 532. Justice Kagan’s concurrence also
refers to statutes that show Congress’s willingness
to apply Title 17 extraterritorially. See 17 U.S.C.
§§ 602(a)(2)-(b).
Despite curtailing Title 17’s no-extraterritorialapplication principle and creating “conceptual awkwardness,” Geophysical’s interpretation of § 109 is consistent with Kirtsaeng and avoids the more serious
problems of the alternative interpretations that run
counter to Title 17’s language.
On remand, the court interprets “lawfully made
under this title” to mean that a copy is lawful if it was
made in the United States in compliance with Title 17
or in a foreign country in a manner that would comply
with Title 17 if United States copyright law applied.
B.

Applying the Legal Standard

TGS asserts that the seismic data copies were
“lawfully made” by the Canadian Board because they
would have been authorized by United States law had

App. 74
they been made in the United States.6 TGS argues that
“the Court must pretend that the copies had been
made in the United States and determine whether the
making of those copies would have violated the Copyright Act.” (Docket Entry No. 74, at 14). The court
does not need to “pretend” that the copies were made
in the United States subject to all United States
laws, but instead must determine whether the copies,
made abroad, were made in a manner that would have
violated Title 17 if it applied. The United States regulatory regime that governed the submission and disclosure of processed seismic data is not part of Title 17. A
foreign copy is not “lawfully made under this title” if it
would have been lawful under United States laws or
regulations besides Title 17. The issue is whether the
Board’s copying and importation at TGS’s request was
lawfully made under Title 17, not under another foreign statute, law, or regulation that may have a United
States equivalent. 17 U.S.C. § 602(a)(1).
In 1982 as well as in 1999, both Canadian and
United States law required parties conducting seismic
surveys to submit the data to the government, knowing that it could be disseminated at a later date. But
the Canadian and United States regulatory regimes do
not affect the copyright status of foreign-made copies
of the seismic data obtained from surveying in the
6

TGS submitted a supplemental brief with a detailed timeline of the progression of the respective United States and Canadian regulatory regimes on the submission and disclosure of
processed seismic data. (Docket Entry No. 81). Geophysical does
not contest the accuracy of TGS’s timeline with respect to the
United States regime. (Docket Entry No. 84, at 13).

App. 75
foreign country. Canada’s licensing does not expand or
restrict the rights confirmed by Title 17. See 17 U.S.C.
201(e) (when copyright ownership “has not previously
been transferred voluntarily . . . no action by any governmental body . . . shall be given effect”); Veeck v. S.
Bldg. Code Cong. Int’l, Inc., 293 F.3d 791, 803 (5th Cir.
2002) (“Section 201(e) of the Act reflects Congress’s intention to protect copyrights from involuntary appropriation by government entities.”). If the Canadian
Board’s copying and importation at TGS’s request is
unlawful under Title 17, the fact that it satisfied the
Canadian or American seismic survey licensing regulations does not mean that the copies were “lawfully
made under this title.” If the Canadian Board’s copying
and importation were lawful under Title 17, they are
lawful “under this title” without regard to whether
they complied with or violated the Canadian or the
United States regulations on submitted seismic survey
data.
The similarities between the United States and
Canadian regulatory regimes on seismic survey data
do not establish that, as a matter of law, the seismic
copies were “lawfully made” under Title 17 because
they complied with Canadian licensing regulations on
seismic survey data. Dismissal of Geophysical’s complaint for this reason is not warranted. Applying
§ 109’s “lawfully made under this title” standard to this
case, the creation of the seismic data copies in Canada
would not have been authorized under Title 17. TGS’s
motion to dismiss on ground that the copies were “lawfully made under this title” is denied.

App. 76
V.

Alternative Grounds for Dismissal

TGS makes two alternative arguments for lawful
copying and importation, even if United States copyright law applies. TGS argues that the copies are protected by fair use and that Geophysical granted the
Canadian Board an implied license to copy and distribute the seismic data. Each argument is addressed below.
A.

Fair Use

Like the first sale doctrine, the fair-use doctrine
can be traced back to English common law. The “fair
abridgment” doctrine “treated the question of whether
a use was bona fide as a complex factual question that
resists bright-line rules and requires case-by-case analysis.” Matthew Sag, The Prehistory of Fair Use, 76
Brook. L. Rev. 1, 23 (2011). Justice Story introduced
the doctrine to United States common law in Folsom v.
Marsh, 9 F. Cas. 342, F. Cas. No. 4901 (C.C.D. Mass.
1841).7 In Folsom, Justice Story noted that “a reviewer
may fairly cite largely from [an] original work, if
his design be really and truly to use the passages for
the purposes of fair and reasonable criticism.” Folsom
identified factors to consider in deciding that question,
including: “the nature and objects of the selections
made, the quantity and value of the materials used,
and the degree in which the use may prejudice the sale,

7

See Gideon Parchomovsky & Philip J. Weiser, Beyond Fair
Use, 96 CORNELL L. REV. 91, 99 (2010).

App. 77
or diminish the profits, or supersede the object, of the
original work.” Folsom, 9 F. Cas. at 344, 348.
In 1976, Congress codified the common law fairuse doctrine at 17 U.S.C. § 107, which states:
Notwithstanding the provisions of sections
106 and 106A, the fair use of a copyrighted
work, including such use by reproduction in
copies or phonorecords or by any other means
specified by that section, for purposes such as
criticism, comment, news reporting, teaching
(including multiple copies for classroom use),
scholarship, or research, is not an infringement of copyright. In determining whether
the use made of a work in any particular case
is a fair use the factors to be considered shall
include—
(1) the purpose and character of the use,
including whether such use is of a commercial nature or is for nonprofit educational purposes;
(2)

the nature of the copyrighted work;

(3) the amount and substantiality of
the portion used in relation to the copyrighted work as a whole; and
(4) the effect of the use upon the potential market for or value of the copyrighted
work.
The fact that a work is unpublished shall not
itself bar a finding of fair use if such finding is
made upon consideration of all the above factors.

App. 78
Section 107’s list of factors is not exclusive. Sony Corp.
of America v. Universal City Studios, Inc., 464 U.S. 417,
476, 104 S. Ct. 774, 78 L. Ed. 2d 574 (1984). Instead,
§ 107 “is best understood as an endorsement of the essential fact-specificity and case-by-case methodology of
the common law of fair use.” Harper & Row Publishers,
Inc. v. Nation Enterprises, 471 U.S. 539, 595 n.19, 105
S. Ct. 2218, 85 L. Ed. 2d 588 (1985).
TGS correctly argues that fair use can be a ground
for dismissal at the Rule 12(b)(6) stage. (Docket Entry
No. 74, at 23); see Brownmark Films, LLC v. Comedy
Partners, 682 F.3d 687, 692 (7th Cir. 2012); Galvin v.
Illinois Republican Party, 130 F. Supp. 3d 1187, 1192
(N.D. Ill. 2015); Payne v. Courier-Journal, 2005 U.S.
Dist. LEXIS 49546, 2005 WL 1287434, at *3 (W.D. Ky.
May 31, 2005); William F. Patry, Patry on Fair Use
§ 7:5 (2017) (“Increasingly, courts have considered fair
use on a rule 12(b)(6) motion to dismiss for failure to
state a claim. . . .”). But the bar for this result is set
high, requiring “facts sufficient to evaluate each of the
statutory factors.” Harper, 471 U.S. at 560. This requirement is particularly difficult to meet before any
discovery. See Brownmark, 682 F.3d at 690 (“[C]ourts
should usually refrain from granting Rule 12(b)(6) motions on affirmative defenses.”); Browne v. McCain, 612
F. Supp. 2d 1125, 1130 (C.D. Cal. 2009) (“[I]n light of a
court’s narrow inquiry at this stage and limited access
to all potentially relevant and material facts needed to
undertake the analysis, courts rarely analyze fair use
on a 12(b)(6) motion.”); Nichols v. Club for Growth Action, 235 F. Supp. 3d 289, 295 (D.D.C. 2017).

App. 79
Viewing the factual allegations in the light most
favorable to Geophysical leads to the conclusion that
it is premature to dismiss the complaint on fair-use
grounds. This case is not like Brownmark, in which
“only two pieces of evidence [were] needed to decide the
question of fair use” at the motion to dismiss stage and
made it clear that one work parodied the other. 682
F.3d at 690, 693. Nor is this case like Payne, in which
“the Article and the work which it allegedly infringed
[were] in the record,” allowing a legal determination of
infringement on a motion to dismiss. 2005 U.S. Dist.
LEXIS 49546, 2005 WL 1287434, at *3. Reviewing the
four fair-use factors shows that more facts are needed
to make a thorough and accurate fair-use determination.
The first factor, the purpose and character of the
use, cannot be weighed without knowing more about
how TGS used the Geophysical seismic data it obtained from the Canadian Board. TGS argues that this
factor weighs in favor of finding fair use because it
used the data to benefit the public. (Docket Entry No.
62, at 29-31; Docket Entry No. 74, at 24). But the “central purpose” of this factor is to see “whether the new
work merely ‘supersede[s] the objects’ of the original
creation or instead adds something new, with a further
purpose or different character, altering the first with
new expression, meaning, or message. . . .” Campbell v.
Acuff-Rose Music, Inc., 510 U.S. 569, 579, 114 S. Ct.
1164, 127 L. Ed. 2d 500 (1994) (internal citations omitted). Geophysical alleged that TGS “copied and distributed [its works], or made derivative works from [its

App. 80
works].” (Docket Entry No. 1, ¶ 10). Though Geophysical has abandoned its direct-infringement claims to
the extent that they were based on TGS’s actions after
it received the copies, Geophysical, 850 F.3d at 792,
the fair-use inquiry requires more facts to determine
whether or how TGS’s use altered the seismic data it
received.
The second factor, the nature of the work, cannot
be weighed without information on how the seismic
data was made, processed, and compiled. The seismic
data is not in the record. Geophysical alleged in its
complaint that collecting the seismic lines required
“know-how, experience, judgment and utilizes proprietary techniques and equipment,” and that the data
must be specially processed in order to be utilized by a
customer involved in exploring for oil and gas. (Docket
Entry No. 1, ¶¶ 7-9). Perhaps the nature of Geophysical’s works is more “ ‘informational’ or ‘factual’ than it
is ‘creative,’ ” as TGS argues. (Docket Entry No. 62, at
31); Cariou v. Prince, 714 F.3d 694, 709 (2d Cir. 2013)
(“greater leeway” is afforded to the fair use work that
is informational or factual). But even assuming that is
true, Geophysical’s decisions on how to arrange and assemble the seismic data go to the weight given to this
factor. Feist Publications, Inc. v. Rural Tel. Serv. Co.,
499 U.S. 340, 348, 111 S. Ct. 1282, 1289, 113 L. Ed. 2d
358 (1991) (a compilation’s author can express degrees
of creativity depending on how the author “chooses
which facts to include, in what order to place them, and
how to arrange the collected data so that they may be
used effectively by readers”). This factor, like the other

App. 81
fair-use factors, is not an “exclusive determinant[ ] of
the fair use inquiry and [does] not mechanistically resolve fair use issues.” Harper, 471 U.S. at 588. Additional discovery is needed to determine the weight to
give this factor and which party it favors.
On the third factor, the amount and substantiality
of the copied portion used, TGS states that “complete
copying of the lines was necessary to achieve the purpose of the intended subsequent use: offshore exploration and development.” (Docket Entry No. 62, at 32;
Docket Entry No. 72, at 25). This admission makes this
third fair-use factor weigh in Geophysical’s favor. See
Kelly v. Arriba Soft Corp., 336 F.3d 811, 820 (9th Cir.
2003) (“While wholesale copying does not preclude fair
use per se, copying an entire work militates against a
finding of fair use.”). TGS relies on its purpose-andcharacter-of-the-use argument to justify the extent of
its copying, but, for the reasons stated above, applying
this factor requires further discovery.
The fourth factor, the effect on the potential market, cannot be weighed without discovery into whether
there was an implied license. TGS argues that “under
the Canadian regulatory regime, there is no market for
Geophysical’s works after the confidentiality period.”
(Docket Entry No. 74, at 25). TGS is right if Geophysical granted the Board an implied license to disclose
and distribute its data. But, for the reasons explained
in detail below, whether Geophysical granted an implied
license cannot be determined on the present record.
More discovery is necessary to answer that question.
If Geophysical did not grant the Board an implied

App. 82
license, discovery on the “actual harm to the market for
the original” and “whether widespread use of the work
. . . would impair the potential market for the original
work and any derivative works” is necessary to determine the weight to be given this factor. Compaq Computer Corp. v. Ergonome Inc., 387 F.3d 403, 410 (5th Cir.
2004).
At this motion-to-dismiss stage, the record is not
sufficient for the fact-intensive fair-use analysis. The
identified areas of discovery are not exhaustive. The
parties should focus on gathering facts not only on the
four § 107 factors, but on any factors relevant to fair
use. On the present record, TGS’s motion to dismiss on
the fair-use ground must be denied.
B.

An Implied License

TGS argues that Geophysical granted the Canadian Board an implied license to copy and distribute
the seismic data Canadian law required Geophysical
to submit.8 (Docket Entry No. 62, at 24; Docket Entry
8

Geophysical argues that the Fifth Circuit’s remand and
mandate bars this court from ruling on this issue. See Tollett v.
City of Kemah, 285 F.3d 357, 364 (5th Cir. 2002) (“[A] lower court
on remand must implement both the letter and spirit of the
[appellate court’s] mandate, and may not disregard the explicit
directives of that court.” (emphasis omitted)). Geophysical’s argument is unpersuasive. The Fifth Circuit ordered “further proceedings on [the direct infringement claim] in light of the principles
discussed here.” Geophysical, 850 F.3d at 800. The Court also
suggested that the court “may revisit its initial inclination that
Geophysical granted the [Board] an implied license,” noting that
the creation of an implied license is a fact question. Id. at 798.

App. 83
No. 27, at 20). If Geophysical gave the Board an implied license to distribute the seismic data Geophysical
submitted as a condition to conducting the seismic survey, the infringement claim against TGS fails as a matter of law.
An implied license typically arises when: “(1) a
person (the licensee) requests the creation of a work,
(2) the creator (the licensor) makes the particular work
and delivers it to the licensee who requested it, and
(3) the licensor intends that the licensee-requestor
copy and distribute his work.” Lulirama Ltd., Inc. v.
Axcess Broadcast Services, Inc., 128 F.3d 872, 879 (5th
Cir. 1997). “The critical element for finding an implied
license is intent.” Sanchez v. Hacienda Records and
Recording Studio, Inc., 2013 U.S. Dist. LEXIS 18169,
2013 WL 529950, at *6 (S.D. Tex Feb. 11, 2013). “Without intent [to permit the use], there can be no implied
license.” Id. (quotation and citation omitted). An implied license can arise even when each of the Lulirama
factors are not present but “where the totality of
the parties’ conduct supported such an outcome.” See
Baisden v. I’m Ready Productions, 693 F.3d 491, 501
(2012).
TGS argues that Geophysical’s complaint allegations establish an intent to convey an implied
license because Geophysical was aware of and complied with Canada’s licensing requirement to submit
the seismic data and agree to a limited confidentiality
Nothing in the Fifth Circuit’s order prohibits the court from ruling on TGS’s implied license argument.

App. 84
period. TGS asserts that the Canadian regulatory regime has, at the relevant times, provided that the submitted data would be disclosed on request after
a period of confidentiality, and that Geophysical voluntarily submitted its seismic data to the Board
knowing that it could be disclosed when this period
expired.
TGS is correct that the complaint alleges Geophysical’s participation in this regulatory licensing scheme.
Geophysical alleges that it “was required to, and did,
submit to the [Board] a copy of [its works].” (Docket
Entry No. 1, ¶ 29). But the parties dispute whether this
amounted to an implied license and, if so, the parameters of the license that resulted. These disputes cannot
be resolved on the present record.
One dispute is whether Geophysical intended to
grant the Board an implied license that extended to
copying and distribution. Geophysical alleges that the
Board “was never authorized to copy or distribute
[Geophysical’s works], or make derivative works from
[its works].” Id. at ¶ 30. As this court previously noted,
“[n]either the Act nor the Regulations contain language limiting the Petroleum Board’s authority to copy
and distribute the seismic line and other data it requires surveyors to submit.” (Docket Entry No. 28, at
15). Instead, the Canadian regulations use broad language that gives the Board “extensive control over the
data, including the right to copy and distribute it after
the confidentiality period ends.” Id. But even assuming that the Board had the authority to copy and distribute the seismic data it required, the question of

App. 85
Geophysical’s intent turns on the information and circumstances available to it at the relevant time. Would
a company in Geophysical’s position in 1982 and 1983
reasonably understand that the Canadian regulations
permitting the Board to disclose the seismic data after
the confidentiality period ended could result in the copying and distribution of that data to any requesting
party? Did the Board have discretion to decide whether
to copy and send the data to those requesting it, as Geophysical argues? (Docket Entry No. 72, at 25; Docket
Entry No. 84, at 4). If so, does the Board’s discretion
affect whether Geophysical intended to grant an implied license that included copying and distribution?
And if Geophysical granted an implied license, should
Geophysical have reasonably expected the license to
extend to importation of copies of its works into the
United States?
These questions—and there may be more—cannot
be answered on the present record. The questions are
important to determine whether Geophysical’s participation in the Canadian regulatory regime shows that
it granted the Board an implied license to copy and distribute its seismic data and import it into the United
States. See Geophysical, 850 F.3d at 799 (the creation
of an implied license is a fact question). On the present
record, TGS’s motion to dismiss on the implied-license
ground must be denied.

App. 86
IV. Conclusion
TGS’s motion to dismiss is denied on the present
record. (Docket Entry No. 62). A status and scheduling conference is set for December 1, 2017, at 1:30
p.m.
SIGNED on November 21, 2017, at Houston,
Texas.
/s/ Lee H. Rosenthal
Lee H. Rosenthal
Chief United States District Judge

App. 87
Geophysical Serv. v. TGS-NOPEC Geophysical Co.
United States Court of Appeals for the Fifth Circuit
March 10, 2017, Filed
No. 15-20706
Counsel: For GEOPHYSICAL SERVICE, INCORPORATED, Plaintiff - Appellant: Joel B. Rothman,
Esq., Schneider Rothman Intellectual Property Law
Group, Boca Raton, FL; Brent Taylor Caldwell, Esq.,
Matthew J. M. Prebeg, Ph. D., Prebeg, Faucett & Abbot,
P.L.L.C., Houston, TX.
For TGS-NOPEC GEOPHYSICAL COMPANY, Defendant - Appellee: Melanie B. Rother, Peter C. Tipps,
Norton Rose Fulbright US, L.L.P., Houston, TX.
Judges: Before HIGGINBOTHAM, ELROD, and
HIGGINSON, Circuit Judges.
Opinion by:

PATRICK E. HIGGINBOTHAM

Opinion
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Canada has a law that requires companies who
gather seismic data about the Earth’s substructure to
submit their findings to the Canadian government.
After a period of confidentiality, the Canadian agency
that compiles this data is then apparently permitted
to release it to members of the public upon specific
request. In this case, a Houston company requested
seismic data from this Canadian agency pursuant to
that law, and the Canadian agency sent copies of a

App. 88
particular Canadian company’s seismic data to the
United States. The Canadian company then sued the
Houston company, alleging copyright infringement.
We are called upon to determine whether the act
of state doctrine forbids a United States court from
considering the applicability of copyright’s first sale
doctrine to foreign-made copies when the foreign copier was a government agency. We hold that it does not.
We must also decide whether the inapplicability of the
Copyright Act to extraterritorial conduct bars a contributory infringement claim based on the domestic
authorization of entirely extraterritorial conduct. We
hold that it does. Accordingly, we affirm in part, reverse
in part, vacate in part, and remand.
I.
The parties compete in the seismic data industry,
using off-shore technological equipment to bounce
sound waves off the ocean floor. The reflected sound
waves bring information about the rock layers beneath
the earth’s crust, information nigh useless until geophysicists digitally create “seismic lines,” paper copies
of which are known as “seismic sections.” A seismic line
is a cross section of the area surveyed that incorporates
professional interpretation of the information gathered and puts it into a useful format. The result is a
copyright-protected geological “picture” of the subterranean structure in the area surveyed, useful to the oil
and gas industry in locating hydrocarbons. These pictures are often licensed to oil and gas explorers.

App. 89
Plaintiff-Appellant Geophysical Service, Inc.
(“Geophysical”) is a Canadian corporation based in
Calgary, operating under Canadian law. The CanadaNewfoundland and Labrador Offshore Petroleum
Board (“CNLOP Board”), established by Canadian legislation, regulates energy exploration to ensure worker
safety, environmental protection and safety, effective
management of land, maximum hydrocarbon recovery
and value, and benefits to the government. Under Canadian law and the regulations of the CNLOP Board,
companies are required to provide the CNLOP Board
with a copy of each seismic line they create, and the
Board is required to keep these submissions confidential for ten years.1 Geophysical provided copies of its
seismic lines to the Board.
In 1999, Defendant-Appellee TGS-NOPEC Geophysical Co. (“TGS”) emailed the CNLOP Board to request copies of thirty-three of Geophysical’s old seismic
lines. Pursuant to that request, and apparently acting
under the authority of the Canadian legislation that
established it,2 the CNLOP Board directed a private
copy service in Canada to prepare copies of Geophysical’s old seismic lines and send them by courier to TGS
in Houston. The Board billed TGS $97.75 in shipping
and handling costs. Geophysical discovered this transaction years later, in 2013.

1

The parties dispute what the Board is lawfully permitted
to do after this ten-year period. We offer no view on this dispute.
2
Geophysical challenged this regulatory regime in Canada.
A Canadian appeals court is currently hearing the case.

App. 90
With the requested copies of Geophysical’s seismic
lines in hand, TGS performed its own seismic surveys
in the same locations surveyed by Geophysical and
captured in its seismic lines. Geophysical also alleges
that TGS prepared additional copies of Geophysical’s
seismic lines, distributed them to third parties, removed their copyright management information, and
prepared derivative works from them.
Learning that the CNLOP Board had furnished
the seismic lines, Geophysical filed this suit in the
Southern District of Texas. Its complaint alleged that
it held a valid copyright in its seismic lines and that
TGS committed direct copyright infringement, committed contributory copyright infringement, and unlawfully removed Geophysical’s copyright management
information from its works. TGS filed a motion under
Rule 12(b)(6) to dismiss the complaint, or alternatively,
to abstain. The district court first ruled that the
CNLOP Board had an implied license to create copies
of Geophysical’s seismic lines, so TGS’s importation of
them was protected by the first sale doctrine, and that
any other claims were insufficiently pled, but that
Geophysical could amend its complaint to add sufficient allegations. Geophysical did not amend, but instead moved for reconsideration of the district court’s
initial order, which the court granted. Its new order is
the subject of this appeal.
In its final judgment, the district court ruled that
Geophysical failed to state a claim for direct infringement or removal of copyright management information because its allegations in support of those

App. 91
claims were speculative and conclusory. It further
ruled that Geophysical could not maintain a claim for
contributory infringement because the direct infringement upon which that claim was predicated occurred
extraterritorially, and alternatively, because the act of
state doctrine forbade the court from passing on the
legality of the CNLOP Board’s actions. Finally, the district court ruled that to the extent Geophysical claimed
importation of infringing material, that claim was
barred because the act of state doctrine and “extraterritoriality principles” required the court to find that
the copies were lawfully made.
The district court then dismissed Geophysical’s
complaint with prejudice and awarded TGS its attorneys’ fees and costs upon TGS’s motion. Geophysical
timely appealed both the dismissal and fee award.
II.
1.
“We review a district court’s grant of a motion to
dismiss de novo.”3 We review whether a district court
applied the correct legal standard for attorneys’ fees
de novo.4 We review a district court’s ultimate award of
attorneys’ fees for abuse of discretion.5

3

Boyd v. Driver, 579 F.3d 513, 515 (5th Cir. 2009).
Hogan Sys., Inc. v. Cybresource Int’l, Inc., 158 F.3d 319, 325
(5th Cir. 1998), overturned on other grounds by Kirtsaeng v. John
Wiley & Sons, Inc., 136 S. Ct. 1979, 195 L. Ed. 2d 368 (2016).
5
Id.
4

App. 92
2.
Turning first to our jurisdiction, as we must,6 we
see only one jurisdictional issue: TGS’s contention that,
as Geophysical did not allege domestic copyright infringement, its claims are beyond the territorial reach
of the Copyright Act.7 Some cases treat the territorial
reach of the Copyright Act as an issue of jurisdiction,8
so we turn first to this question.9
We are persuaded that the Copyright Act’s insistence that infringing conduct be domestic offers an essential element of a copyright infringement plaintiff ’s

6

See Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 583,
119 S. Ct. 1563, 143 L. Ed. 2d 760 (1999) (“[S]ubject-matter delineations must be policed by the courts on their own initiative even
at the highest level.”) (citing Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 94-95, 118 S. Ct. 1003, 140 L. Ed. 2d 210
(1998)).
7
See Kirtsaeng v. John Wiley & Sons, Inc., 568 U.S. 519, 133
S. Ct. 1351, 1376, 185 L. Ed. 2d 392 (2013) (Ginsburg, J., dissenting) (“The Copyright Act, it has been observed time and again,
does not apply extraterritorially.” (citing United Dictionary Co. v.
G. & C. Merriam Co., 208 U.S. 260, 264, 28 S. Ct. 290, 52 L. Ed.
478, 1908 Dec. Comm’r Pat. 559 (1908))); see also Subafilms, Ltd.
v. MGM-Pathe Commc’ns Co., 24 F.3d 1088, 1095-98 (9th Cir.
1994) (en banc).
8
See, e.g., Peter Starr Prod. Co. v. Twin Cont’l Films, Inc.,
783 F.2d 1440 (9th Cir. 1986); Palmer v. Braun, 376 F.3d 1254
(11th Cir. 2004); Rundquist v. Vapiano SE, 798 F. Supp. 2d 102
(D.D.C. 2011).
9
See Steel Co., 523 U.S. at 94 (“Without jurisdiction the court
cannot proceed at all in any cause.”) (quoting Ex parte McCardle,
74 U.S. 506, 514, 19 L. Ed. 264 (1868)).

App. 93
claim, not of jurisdiction. As Arbaugh v. Y&H Corp.10
explained:
If the Legislature clearly states that a threshold
limitation on a statute’s scope shall count as jurisdictional, then courts and litigants will be duly instructed and will not be left to wrestle with the
issue. . . . But when Congress does not rank a statutory limitation on coverage as jurisdictional,
courts should treat the restriction as nonjurisdictional in character.11
The Copyright Act does not express its limit on
territorial reach. That limit arises from the background presumption that legislation reaches only domestic conduct.12 Because the domestic boundary is not
“clearly state[d]” to “count as jurisdictional,” we “treat
the restriction as nonjurisdictional in character.”13
Though the Court has never confronted the precise
question before us, analogous cases applying Arbaugh
confirm that the issue is not one of jurisdiction. Section
10(b) of the Securities Exchange Act’s implicit requirement of domestic conduct is nonjurisdictional,14 and a
different threshold requirement of the Copyright Act is
nonjurisdictional.15 We are persuaded that bounding
10

546 U.S. 500, 126 S. Ct. 1235, 163 L. Ed. 2d 1097 (2006).
Id. at 515-16 (citations omitted).
12
See Subafilms, 24 F.3d at 1095-96.
13
See Arbaugh, 546 U.S. at 515-16.
14
Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247, 25354, 130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010).
15
Reed Elsevier, Inc. v. Muchnick, 559 U.S. 154, 166, 130
S. Ct. 1237, 176 L. Ed. 2d 18 (2010) (applying the Arbaugh test to
11

App. 94
the reach of the Copyright Act to territorial conduct
presents a question of the merits of the claim, not the
jurisdiction of the court.16
III.
1.
A claim of copyright infringement has two elements:
(1) ownership of a valid copyright; and (2) copying constituent elements of the work that are copyrightable.17
This appeal concerns the second element.
Geophysical advanced three claims in the district
court: direct infringement, contributory infringement,
and unlawful removal of copyright management information. Geophysical’s direct infringement claim as
presented to the district court consisted of two distinct
components: first, that TGS unlawfully imported copies of Geophysical’s seismic lines; second, that TGS
thereafter prepared additional copies, prepared derivative copies, and distributed those copies to the public.
However, Geophysical’s briefing on appeal shifts
ground, focusing entirely on the importation component of its direct infringement claim and its contributory infringement claim. “An appellant abandons all
conclude that the registration requirement in the Copyright Act
was a “precondition to suit that supports nonjurisdictional treatment”).
16
Accord Litecubes, LLC v. N. Light Prods., Inc., 523 F.3d
1353, 1368 (Fed. Cir. 2008).
17
Bridgmon v. Array Sys. Corp., 325 F.3d 572, 576 (5th Cir.
2003).

App. 95
issues not raised and argued in its initial brief on appeal.”18 To the extent that Geophysical’s claim of direct
infringement was based on alleged actions taken by
TGS after receiving the imported copies, it now abandons those allegations on appeal, as well as any claim
of unlawful removal of copyright management information. Dismissal of those aspects of Geophysical’s
claims is not before us.
2.
Two claims remain: direct infringement by importation and contributory infringement.
A. Direct Infringement by Importation
The district court dismissed Geophysical’s claim of
unlawful importation on two independent grounds.
First, it found that Geophysical had failed to plead unlawful importation in its complaint. Second, it found
that amendment was futile: Geophysical’s unlawful
importation claim would be barred because the act of
state doctrine and “extraterritoriality principles” required the court to find that the copies made by the
CNLOP Board were “lawfully made” within the meaning of the first sale doctrine.

18

Cinel v. Connick, 15 F.3d 1338, 1345 (5th Cir. 1994) (emphasis removed).

App. 96
1. Failure to Plead
We are not persuaded that Geophysical failed to
plead a claim for unlawful importation. Under § 602 of
the Copyright Act, importation into the United States
of copyrighted work without the copyright holder’s permission is actionable as infringement of the copyright
holder’s exclusive right to distribute.19 Unauthorized
importation of copyrighted work is a statutorily established method of demonstrating infringement of one of
the exclusive rights afforded by § 106 of the Copyright
Act and is not itself a separate claim that must be separately pleaded.20
Geophysical’s complaint pleads that TGS imported copies of its copyrighted seismic lines:
[O]n March 29, 1999, TGSN solicited CNLOPB to
copy and distribute to TGSN copies of the . . .
19

17 U.S.C. § 602(a)(1) (“Importation into the United States,
without the authority of the owner of copyright under this title, of
copies or phonorecords of a work that have been acquired outside
the United States is an infringement of the exclusive right to distribute copies or phonorecords under section 106, actionable under section 501.”); Quality King Distribs., Inc. v. L’anza Research
Int’l, Inc., 523 U.S. 135, 145, 118 S. Ct. 1125, 140 L. Ed. 2d 254
(1998) (“[Section] 602(a) merely provides that unauthorized importation is an infringement of an exclusive right ‘under section
106.’ ”).
20
Cf. Warren v. John Wiley & Sons, Inc., 952 F. Supp. 2d
610, 620 (S.D.N.Y. 2013) (“[T]he plain language of the statute
makes clear that an exportation of a copyrighted work without
the permission of the copyright owner is merely a type of copyright infringement, rather than a separate cause of action. Thus,
. . . the unauthorized import or export of copies under § 602 are
simply additional examples of infringement under § 106.”).

App. 97
Works. . . . [O]n or about April 9, 1999, CNLOPB
copied and distributed the . . . Works to TGSN by
courier to TGSN in Houston, Texas.
It further alleges, under the heading “Direct Copyright Infringement,” violation of Geophysical’s exclusive right to distribute. The complaint did not state
that “unauthorized importation” or some variant partially formed the basis of Geophysical’s direct infringement claim, but its substance was sufficient, and we
turn to the merits of Geophysical’s direct infringement
claim alleging unlawful importation.
2. Merits
On the merits of Geophysical’s importation claim,
TGS defended on the basis that its importation of copies of Geophysical’s seismic lines was protected by the
first sale doctrine because the copies were “lawfully
made.” TGS offered the district court several alternative bases by which to find that the copies it imported
were lawfully made: (1) because the act of state doctrine required the court to deem the actions of the
CNLOP Board lawful; (2) because Canadian law authorized the CNLOP Board to make the copies; and
(3) because Geophysical had granted the CNLOP
Board an implied license to create copies of its works,
making their creation “lawful” under United States
copyright principles. In finding that amendment would
be futile, the district court was persuaded by the act of
state argument. It ruled that Geophysical’s claim of
unlawful importation would be barred by the first sale
doctrine because the act of state doctrine required it to

App. 98
find “lawful” the actions of the CNLOP Board, a Canadian government agency. It did not reach the question
of whether Canadian or United States law governed
whether the copies were “lawfully made.”
Ultimately, we disagree with the application of the
act of state doctrine here, for reasons we will describe.
But first, we turn to the principles of the first sale doctrine.
i. First Sale Doctrine
The Copyright Act vests in copyright holders several enumerated exclusive rights that they enjoy over
their copyrighted works.21 It is clear that one of those
rights is the exclusive right “to distribute copies or
phonorecords of the copyrighted work to the public by
sale or other transfer of ownership, or by rental, lease,
or lending.”22 But § 106 is equally clear that each of
those exclusive rights is “[s]ubject to sections 107
through 122,”23 which establish various limitations
on the enumerated exclusive rights. Relevant here is
§ 109, which limits the copyright owner’s exclusive
right to distribute:
Notwithstanding the provisions of section 106(3),
the owner of a particular copy or phonorecord
lawfully made under this title, or any person authorized by such owner, is entitled, without the authority of the copyright owner, to sell or otherwise
21
22
23

17 U.S.C. § 106.
Id. § 106(3).
Id. § 106.

App. 99
dispose of the possession of that copy or
phonorecord.24
This “first sale doctrine” found its way into United
States copyright law long before it was codified as
§ 109 in the current Copyright Act in 1976.25 It reflects
the fundamental principle of copyright that ownership
of the copyright in a work is distinct from ownership of
the material object that embodies the work.26 When a
copyright owner transfers or authorizes transfer of a
copy or phonorecord embodying his copyright, he does
not surrender his copyright, but he does mostly surrender control of the material object.27 The copyright
owner will not be heard to complain of his transferee’s
transferring the material object in a way that might
otherwise foul the exclusive right to distribute.
The doctrine of “first sale” is somewhat of a misnomer.28 The limitation embodied in § 109 does not
depend on whether the copyright owner’s initial disposition was by sale; the only prerequisite is that the
copy or phonorecord in question be “lawfully made.”29
24

17 U.S.C. § 109(a).
4 WILLIAM F. PATRY, PATRY ON COPYRIGHT § 13:18 (Sept.
2016 update).
26
Id. § 13:15 (citing Columbia Pictures Indus., Inc. v. Redd
Horne, Inc., 749 F.2d 154, 159 (3d Cir. 1984)); see also 17 U.S.C.
§ 202 (“Ownership of a copyright, or of any of the exclusive rights
under a copyright, is distinct from ownership of any material object in which the work is embodied.”).
27
See 17 U.S.C. § 202.
28
PATRY, supra note 25, at § 13:15.
29
Id.; UMG Recordings, Inc. v. Augusto, 628 F.3d 1175, 1179
(9th Cir. 2011) (“Notwithstanding its distinctive name, the [first
25

App. 100
Accordingly, nations elsewhere in the world with similar copyright regimes refer to the principle as the “exhaustion doctrine,” reflecting the notion that the
copyright owner “exhausts” his distribution right in a
copy or phonorecord upon first transfer of that copy or
phonorecord.30
Section 109 by its plain terms limits only the exclusive right to distribute. The owner of a lawfully
made copy or phonorecord is still forbidden from copying it, preparing derivative works based on it, publicly
performing it, or publicly displaying it, any of which
would violate one of the copyright owner’s other exclusive rights (absent some other limitation or defense).31
Section 602 of the Copyright Act establishes that
unauthorized importation into the United States of
copies or phonorecords acquired outside the United
States is infringement of the § 106(3) exclusive right
to distribute.32 Because this “importation right” is
merely a corollary of the distribution right, it is similarly limited by the first sale doctrine.33 Accordingly,
importation into the United States of lawfully made
copies or phonorecords, even where the copyright

sale] doctrine applies not only when a copy is first sold, but when
a copy is given away or title is otherwise transferred without the
accouterments of a sale.”).
30
PATRY, supra note 25, at § 13:15.
31
See 17 U.S.C. § 106(1)-(2), (4)-(6).
32
17 U.S.C. § 602.
33
Quality King Distribs., Inc. v. L’anza Research Int’l, Inc.,
523 U.S. 135, 144, 118 S. Ct. 1125, 140 L. Ed. 2d 254 (1998).

App. 101
holder has not authorized such importation, is protected by § 109.
In Kirtsaeng v. John Wiley & Sons, Inc. [Kirtsaeng I],34
the Supreme Court held that the first sale doctrine
protects importers of lawfully made copies no matter
where in the world those copies were made. In
Kirtsaeng I, plaintiff Wiley published textbooks in the
United States and authorized its wholly owned subsidiary, Wiley Asia, to manufacture and publish essentially identical textbooks in Thailand.35 Defendant
Kirtsaeng took advantage of the substantially lower
prices for the Asian versions of the textbooks by having
his friends and family purchase Wiley textbooks in
Thailand, then ship them to him in the United States
so that he could resell them for a profit at a lower price
than the comparable American version.36
Wiley sued Kirtsaeng, alleging that his unauthorized importation of its textbooks amounted to infringement of Wiley’s § 106(3) exclusive right to distribute by
virtue of § 602’s prohibition on unauthorized importation of copyrighted works.37 Kirtsaeng defended by invoking the first sale doctrine, pointing out that the
textbooks he acquired were “lawfully made” and that
he acquired them legitimately, so he was permitted to
import and resell the textbooks without the copyright

34
35
36
37

568 U.S. 519, 133 S. Ct. 1351, 185 L. Ed. 2d 392 (2013).
Id. at 1356.
Id.
Id. at 1357.

App. 102
owner’s permission.38 Wiley argued that the first sale
doctrine protected only copies made in the United
States or its territories, insisting that the phrase “lawfully made under this title” in § 109 imposed a geographic limitation restricting the lawful making of
copies to places where the United States Copyright Act
is the law.39
Wiley’s view was shared at the time by the Second
and Ninth Circuits.40 That view was plausible because
the Supreme Court case that originally had applied the
first sale doctrine to importation claims had involved a
situation where the copies were made in the United
States, exported, and then subsequently reimported.41
However, the Court in Kirtsaeng I declined to limit the
application of the first sale doctrine to importation
claims to those facts. Instead, it held that the first sale
doctrine applies to copies of a copyrighted work lawfully made abroad.42
The instant case implicates a question left open
by Kirtsaeng I. Upon the Court’s determination that
“lawfully made under this title” could mean lawfully
made anywhere, there was no argument to be made—
and indeed Wiley did not argue—that the imported
textbooks were not lawfully made. Wiley expressly
38

Id.
Id. at 1357-58.
40
Id. at 1357.
41
Quality King, 523 U.S. at 138-39; see Kirtsaeng I, 133
S. Ct. at 1355.
42
Kirtsaeng I, 133 S. Ct. at 1355-56.
39

App. 103
assigned to Wiley Asia the rights to publish, print, and
sell Wiley’s textbooks in Thailand, so the imported
textbooks were indisputably lawfully made.43 Once the
question of the geographic scope of § 109 was resolved,
there was no question before the Court whether the
creation of the Thai textbooks was lawful or unlawful,
or whose law applied to make that determination.
Kirtsaeng I therefore leaves open the difficult interpretive puzzle of what it means for a copy manufactured
abroad to have been “lawfully made under this title”
within the meaning of § 109.44
The facts of the instant case supply a good example
of the puzzle: as in Kirtsaeng I, the copies imported into
the United States here were manufactured abroad, but
unlike in Kirtsaeng I, the parties dispute whether
those copies were lawfully made. TGS would have us
look to Canadian law to determine the lawfulness of
the Board’s making of the copies—it points to the fact
that Canadian law appears to authorize the CNLOP
Board to release copies of data submitted to it after ten
years. Geophysical asks us instead to look to United
States copyright principles—it points to the fact that
the U.S. Copyright Act lacks a similar provision, so the
CNLOP Board’s making copies of Geophysical’s works
would have been unlawful had U.S. law applied. Applying foreign law seems to contradict the plain language
of § 109, which asks whether copies were “lawfully
made under this title,” presumably referring to the
43

Id. at 1356.
2-8 MELVILLE B. NIMMER & DAVID NIMMER, NIMMER
COPYRIGHT § 8.13[B][3][c][v] (2016).
44

ON

App. 104
title in which it appears, the Copyright Act. But applying United States law seems to foul the principle that
the Copyright Act has no extraterritorial application,
and creates some conceptual awkwardness where, like
here, the foreign-made copies were made pursuant to
some legal regime that finds no analog in United
States law.
We decline to resolve this issue here, as the district
court did not reach it, having found primarily that Geophysical failed to plead an importation claim, and alternatively, that the act of state doctrine required a
finding of “lawfulness” regardless of whose law applied.
The parties have yet to brief the proper interpretation
of § 109—an issue that ought in the first instance be
passed on by the able district court. We will remand
for determination of the proper standard by which to
assess whether imported copies made abroad were
lawfully made under § 109 and application of that
standard.
As mentioned, the district court did not need to
engage this analysis because it found that the act of
state doctrine mandated a finding that CNLOP Board’s
making of the copies was lawful. We turn now to that
doctrine.
ii. Act of State Doctrine
This case presents yet another wrinkle: the foreignmade copies in question were created by a Canadian
government agency. The district court accepted TGS’s
argument that, because the act of state doctrine bars

App. 105
United States courts from deciding that a foreign government acted unlawfully, the court was required to
find the copies made by the CNLOP Board “lawfully
made” within the meaning of § 109. We disagree.
The act of state doctrine “limits, for prudential
rather than jurisdictional reasons, the adjudication in
American courts of the validity of a foreign sovereign’s
public acts.”45 The doctrine applies to bar an action
when “the relief sought or the defense interposed
would have required a court in the United States to
declare invalid the official act of a foreign sovereign
performed within its own territory.”46 Though seemingly international in character, the doctrine is
founded in concerns of domestic separation of powers,
“reflecting the strong sense of the Judicial Branch that
its engagement in the task of passing on the validity of
foreign acts of state may hinder the conduct of foreign
affairs.”47 “Act of state issues only arise when a court
must decide—that is, when the outcome of the case
turns upon—the effect of official action by a foreign
sovereign.”48 It can apply “even if the defendant is a
private party, not an instrumentality of a foreign state,

45

Walter Fuller Aircraft Sales, Inc. v. Republic of Phil., 965
F.2d 1375, 1387 (5th Cir. 1992).
46
W.S. Kirkpatrick & Co., Inc. v. Envt’l Tectonics Corp., Int’l,
493 U.S. 400, 405, 110 S. Ct. 701, 107 L. Ed. 2d 816 (1990).
47
Id. at 404 (internal quotations omitted).
48
Id. at 406.

App. 106
and even if the suit is not based specifically on a sovereign act.”49
We find that the question presented by the first
sale doctrine, whether imported copies were “lawfully
made,” is different in kind from the question whether
the copy-maker acted illegally or invalidly. Hence, the
first sale question is outside the scope of the act of state
doctrine even when the foreign copy-maker is a government agency. The Copyright Act, which does not
apply extraterritorially, does not operate against the
CNLOP Board in Canada. Evaluating the first sale
defense in connection with TGS’s importation of copies
made by the Board does not decide whether the
CNLOP Board is a copyright infringer, which would be
a prohibited inquiry.
We find United States v. Portrait of Wally50 persuasive. There, a New York district court ruled that the act
of state doctrine did not forbid it from considering the
rightful ownership of a portrait even though several
steps in the chain of possession were questionable
transfers to and from the Austrian government.51 That
court held that it was “not being asked to invalidate
any action by an Austrian governmental authority, but
only to determine the effect of such action, if any, on
[the portrait]’s ownership.”52 By analogy here, even a
49

Callejo v. Bancomer, S.A., 764 F.2d 1101, 1113 (5th Cir.

1985).
50
51
52

663 F. Supp. 2d 232 (S.D.N.Y. 2009).
Id. at 247-48.
Id. at 248.

App. 107
ruling in favor of Geophysical will not invalidate any
action by the Canadian government, but only determine the effect of such action on the right of United
States citizens to import copies that a Canadian
agency made. Indeed, even if upon remand the district
court finds that the copies were not “lawfully made
under this title,” that ruling only restricts TGS’s (and
others’) ability to freely import the copies. Any determination will not speak to the validity of the Canadian
government’s actions, only whether those actions support lawful importation into the United States by a
private party.
Further, the rationale behind the act of state doctrine does not support its application here.53 We are unable to see—and TGS, which bears the burden,54 makes
no convincing argument—how passing on TGS’s first
sale defense will “imperil the amicable relations between governments and vex the peace of nations.”55
Finding that the act of state doctrine reaches a discrete, ministerial act like preparing the copies here
is a reach too far.56 In sum, disagreeing with the

53

See W.S. Kirkpatrick & Co., 493 U.S. at 409 (“[S]ometimes,
even though the validity of the act of a foreign sovereign within
its own territory is called into question, the policies underlying
the act of state doctrine may not justify its application.”).
54
Bigio v. Coca-Cola Co., 239 F.3d 440, 453 (2d Cir. 2000).
55
Jimenez v. Aristeguieta, 311 F.2d 547, 558 (5th Cir. 1962)
(quoting Oetjen v. Cent. Leather Co., 246 U.S. 297, 304, 38 S. Ct.
309, 62 L. Ed. 726 (1918)).
56
Cf. Mannington Mills, Inc. v. Congoleum Corp., 595 F.2d
1287, 1294 (3d Cir. 1979) (grant of patents not the type of

App. 108
application here of the act of state doctrine, we must
reverse the dismissal of Geophysical’s importation
claim.
iii. Extraterritoriality
The inapplicability of the United States Copyright
Act to extraterritorial conduct provides no defense to
Geophysical’s importation claim. It is undisputed that
TGS imported the copies of Geophysical’s seismic lines
into Houston, Texas by causing the CNLOP Board to
send them there. Therefore, the act of importation occurred in the United States and is actionable under the
Copyright Act depending on the resolution of TGS’s
first sale defense. To the extent the district court’s dismissal of Geophysical’s importation claim rested on
“extraterritoriality principles,” we disagree.
3. Summary
We reverse the district court’s dismissal of Geophysical’s direct infringement claim to the extent it alleged unauthorized importation, and remand that
claim to the district court. Upon remand, the district
court must first decide whose law governs the determination whether the copies imported by TGS were “lawfully made” under § 109. It must then apply the legal
principles that it determines to govern. For example, if
the district court finds that Canadian law controls the
sovereign activity that would be of substantial concern to the executive branch in its conduct of international affairs).

App. 109
inquiry, then it may be helpful to await the input of the
Canadian courts on Geophysical’s challenge to the
CNLOP Board’s practice of making and releasing copies of seismic lines. Alternatively, if the district court
finds that United States law controls, then it may revisit its initial inclination that Geophysical granted
the CNLOP Board an implied license—though the
creation of an implied license, which turns on the copyright holder’s intent, is a fact question.
B. Contributory Infringement
Geophysical also asserted a claim of contributory
infringement, seeking to hold TGS liable as a contributory infringer to the CNLOP Board’s direct infringement in creating copies of Geophysical’s seismic lines
without Geophysical’s permission. The district court
ruled that both the territoriality limit of the Copyright
Act and the act of state doctrine independently barred
this claim. We affirm on the basis of extraterritoriality.
Contributory infringement is “intentionally inducing or encouraging direct infringement.”57 The direct
infringement that Geophysical alleges to support its
contributory infringement claim is the CNLOP Board’s
creation of unauthorized copies of its seismic lines.
This claim is subtly, but importantly, distinct from
Geophysical’s importation claim. Where Geophysical’s
importation claim, as we have discussed, seeks to
impose liability on TGS for the act of unauthorized
57

Metro-Goldwyn-Mayer Studios, Inc. v. Grokster, Ltd., 545
U.S. 913, 930, 125 S. Ct. 2764, 162 L. Ed. 2d 781 (2005).

App. 110
importation of unlawful copies, its contributory infringement claim seeks to impose liability on TGS for
intentionally encouraging or inducing the CNLOP
Board to create those copies regardless of what the
CNLOP Board did with them thereafter. Unlike Geophysical’s importation claim, its contributory infringement claim turns on whether the CNLOP Board
directly infringed Geophysical’s copyright.
As explained, domestic conduct is a necessary element of a copyright infringement plaintiff ’s claim.58
But if, as alleged here, the defendant induced or encouraged in the United States infringement that then
occurred outside the United States, we face an issue
that neither the Supreme Court nor we have addressed. We find the Ninth Circuit’s decision in
Subafilms, Ltd. v. MGMPathe Communications Co.59
instructive.
In Subafilms, the en banc Ninth Circuit held that
“when the assertedly infringing conduct consists
solely of the authorization within the territorial
boundaries of the United States of acts that occur entirely abroad[,] . . . such allegations do not state a claim
for relief under the copyright laws of the United
States.”60 That holding was founded on the view that
the term “to authorize” in § 106 of the Copyright Act
was not intended to give rise to a protectable right of
authorization in copyright holders, but rather to
58
59
60

See supra Part II(2).
24 F.3d 1088 (9th Cir. 1994) (en banc).
Id. at 1089.

App. 111
invoke the pre-existing doctrine of contributory liability.61 And under that doctrine, there can be no liability
for contributory infringement “unless the authorized
or otherwise encouraged activity itself could amount to
infringement.”62
We are not persuaded by authority to the contrary.
In Curb v. MCA Records, Inc.,63 a district court outside
of the Ninth Circuit rejected the holding of Subafilms,
persuaded that “Subafilms relies upon a peculiar interpretation of the scope and nature of the authorization
right in 17 U.S.C. § 106.”64 We are not persuaded that
there is any such “authorization right.” The structure
of § 106 offers a numbered list of six protectable exclusive rights in copyright holders; “to authorize” is not
among them:
Subject to sections 107 through 122, the owner of
copyright under this title has the exclusive rights
to do and to authorize any of the following:
(1) to reproduce the copyrighted work in copies or phonorecords;
(2) to prepare derivative works based upon
the copyrighted work;
(3) to distribute copies or phonorecords of
the copyrighted work to the public by sale or

61
62
63
64

Id. at 1092.
Id.
898 F. Supp. 586 (M.D. Tenn. 1995).
Id. at 594.

App. 112
other transfer of ownership, or by rental,
lease, or lending;
(4) in the case of literary, musical, dramatic,
and choreographic works, pantomimes, and
motion pictures and other audiovisual works,
to perform the copyrighted work publicly;
(5) in the case of literary, musical, dramatic,
and choreographic works, pantomimes, and
pictorial, graphic, or sculptural works, including the individual images of a motion picture
or other audiovisual work, to display the copyrighted work publicly; and
(6) in the case of sound recordings, to perform the copyrighted work publicly by means
of a digital audio transmission.65
The phrase “to authorize” appears in the preamble
to the list of exclusive rights alongside “to do.” We believe that this structure supports the conclusion that
“to do” and “to authorize” refer to direct and contributory infringement, respectively, but that infringement
in either case must be predicated on one of the listed
exclusive rights. So codified, the doctrine of contributory infringement requires that the underlying direct
infringement upon which it is predicated be actionable
under the Copyright Act.66
In short, we follow the holding of the Ninth Circuit in Subafilms. Where a copyright plaintiff claims
contributory infringement predicated on direct
65
66

17 U.S.C. § 106.
PATRY, supra note 25, at § 21:46.

App. 113
infringement that occurred entirely extraterritorially,
the plaintiff has stated no claim. Geophysical alleges
that TGS authorized in Houston the CNLOP Board to
infringe Geophysical’s copyright in Canada by creating
copies in Canada and then exporting them. This fails
to state a claim of contributory infringement because
it alleges authorization of alleged direct infringement
that occurred entirely extraterritorially. The district
court correctly dismissed the claim on that basis.
This result is not changed by the fact that the
underlying alleged direct infringement involved the
CNLOP Board’s exportation of allegedly infringing
material to the United States. That the United States
was the destination does not convert the CNLOP
Board’s conduct into domestic conduct for the purpose
of the Copyright Act. The act of “exportation” occurred
entirely in Canada, and is beyond the reach of the
Copyright Act notwithstanding the destination. This
division of cross-border conduct into discrete acts of
“exporting” from one country and “importing” into another is supported by the Copyright Act, which does
the same.67
Because we affirm on the basis of extraterritoriality, we need not consider whether the act of state
doctrine would bar Geophysical’s contributory infringement claim.

67

See 17 U.S.C. § 602(a)(1)-(2).

App. 114
IV.
Because we remand this case for further development on one of Geophysical’s claims, and because of a
relevant intervening Supreme Court decision, we vacate the district court’s award of attorneys’ fees and
costs. Upon remand, the district court is free to entertain a motion for attorneys’ fees and costs after its
disposition of Geophysical’s remaining claim, mindful
of the Supreme Court’s recent guidance on awards of
attorneys’ fees in copyright cases.68 We leave to the
district court to apply the standard announced in
Kirtsaeng II. It may consider in its entertainment of
that motion the dismissal of the claims that we affirm
here, but in the interest of allowing it to give full consideration and apply the appropriate standard, we vacate its award.
V.
We affirm the district court’s dismissal of Geophysical’s direct infringement claim to the extent that
it was based on infringing acts by TGS after it received
copies of Geophysical’s seismic lines. We affirm the district court’s dismissal of Geophysical’s claim of removal
of copyright management information. We reverse the
district court’s dismissal of Geophysical’s direct infringement claim to the extent that it was based on
importation of unlawfully made copies and remand
for further proceedings on that claim in light of the
68

Kirtsaeng v. John Wiley & Sons, Inc., 136 S. Ct. 1979, 195
L. Ed. 2d 368 (2016) [Kirtsaeng II].

App. 115
principles discussed here. We affirm the district court’s
dismissal of Geophysical’s contributory infringement
claim. We vacate the district court’s award of attorneys’
fees and costs, which the district court may reconsider
at the appropriate time after its disposition of the remanded claim.

